                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-11A                                   Office of Inspections                                       May 2014




                              Inspection of
                         Embassy Abu Dhabi and
                         Consulate General Dubai,
                          United Arab Emirates




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                          1
Context                                                                3
Executive Direction                                                    4
  National Security Decision Directive 38                              6
  Defense Support Division Contract                                    8
Policy and Program Implementation                                     11
  Political/Economic Section                                          11
  Consular Affairs                                                    13
  Public Diplomacy                                                    16
Consulate General Dubai                                               19
  Dubai Political/Economic Section                                    19
  Dubai Consular Affairs                                              20
  Dubai Public Diplomacy                                              21
  Dubai Information Management                                        21
  Broadcasting Board of Governors                                     22
Resource Management                                                   24
  Management Overview                                                 25
  Real Property                                                       26
  General Services                                                    26
  Facilities Management                                               28
  Human Resources                                                     29
  Equal Employment Opportunity                                        33
  Financial Management                                                34
  Innovative Practice: Abu Dhabi Online Financial Management Center   36
  Abu Dhabi Information Management                                    36
Quality of Life                                                       38
  Employee Association                                                38
  Community Liaison Office                                            39
  Health Unit                                                         39
Management Controls                                                   41
List of Recommendations                                               43
List of Informal Recommendations                                      48
Principal Officers                                                    50
Abbreviations                                                         51




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   The Ambassador’s focus on business development as the mission’s primary goal has
    contributed to an increase in U.S. exports and created a favorable image in business circles
    for both the Ambassador and the embassy.

•   Front office support for the bilateral military relationship has strengthened that valuable tie.
    The Ambassador has been a key facilitator in gaining the release of U.S. military equipment
    for the United Arab Emirates, including through effective congressional testimony.

•   The Ambassador’s focus on commercial promotion has de-emphasized other important U.S.
    interests, such as law enforcement and illicit finance that agencies at the mission are working
    to advance. The Ambassador received below average scores on every leadership category in
    OIG questionnaires.

•   Official visitors consume significant staff resources. The use of commercial expeditor
    services, especially for transiting officials, could free up time for reporting and other duties.

•   The United Arab Emirates’ strategic location and stable environment has led to an expansion
    of U.S. Government agencies at the embassy, without a corresponding increase in
    management support positions. The National Security Decision Directive 38 process is not
    accomplishing its purpose of subjecting proposed staff increases to careful review.

•   The embassy’s Defense Support Division contract merits comprehensive review. Issues
    include cost, standards of service, possible expansion, duration, and the contract’s heavy
    reliance on mission assistance.

•   Demand for consular services at both Embassy Abu Dhabi and Consulate General Dubai has
    mushroomed in recent years. Both are making progress transitioning from small-scale to
    medium-sized, high productivity operations. Frequent requests for special handling of routine
    visa cases from the front office and other parts of the mission impede this process.

•   U.S. education retains a strong appeal in the country. The embassy’s involvement in
    educational advising promotes interest in this important area.

•   The grade level of the principal officer position in Dubai is not consistent with the size and
    importance of the consulate general.

•   Embassy Abu Dhabi created an innovative SharePoint financial management center that
    provides easy, one-stop shopping for clients.




                                         1
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, September 3–23, 2013, and in Abu Dhabi, United
Arab Emirates, between October 19 and November 7, 2013. Ambassador Marianne Myles (team
leader), Michael Hurley (deputy team leader), Alison Barkley, Beatrice Camp, Roger Cohen,
David Davison, Shawn O’Reilly, Keith Powell II, Richard Sypher, Joyce Wong, and Roman
Zawada conducted the inspection.




                                       2
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        The United Arab Emirates (UAE) is a federation of seven emirates located 50 miles from
Iran on the Arabian Peninsula, between Oman and Saudi Arabia. UAE nationals account for less
than 15 percent of the population and enjoy the world’s seventh largest per capita gross domestic
product, thanks to the country’s oil and gas reserves. Despite a 2008–2009 crisis triggered by
near default on debt accumulated from efforts to diversify its economy, Dubai, the second largest
emirate, remains an important transshipment hub and regional financial center.

        The United States and the UAE share strong economic and military ties and work closely
on a range of issues. The UAE is the largest U.S. export market in the Middle East and, with
Saudi Arabia, the top purchaser of defense items sold through the Foreign Military Sales (FMS)
program. It ranks among the top 20 sources of foreign direct investment into the United States.
The UAE has supported international efforts in Afghanistan and Libya, and the U.S. military
enjoys good access to UAE facilities. The two countries also cooperate on efforts to counter the
proliferation of weapons of mass destruction and to reduce drug trafficking and terrorist
financing.

       Staffing for Mission UAE, which consists of Embassy Abu Dhabi and Consulate General
Dubai, has quadrupled from 80 to 325 Americans in the last 10 years. More than 30 non-
Department of State (Department) offices and agencies are present in country, and the mission
houses 14 regional offices that cover the Middle East and other areas. The chancery is less than
10 years old but faces major space and infrastructure challenges. By 2017, the mission may also
need to provide management support for 90 or more FMS personnel now supported by a private
contractor that runs the Defense Support Division (DSD).

        Mission UAE supported 1,605 temporary duty visitors and 63 VIP visitors in 2012, and
the heavy visitor workload takes a toll on staff morale. All locally employed (LE) staff members
are third country nationals, many from South Asia. Local employees continue to advocate for
internal advertising of vacant positions to create promotion opportunities, creation of an
education allowance, clarification of job classification standards, and guidance on the special
immigrant visa program.




                                        3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Executive Direction
         Embassy Abu Dhabi and Consulate General Dubai focus largely on U.S. trade and
business opportunities, with military interests constituting a close second. The Ambassador’s
engagement in business development dominates the agenda of the front office,
political/economic section, Department of Commerce office, and Department of Agriculture
representative. The public affairs office supports these activities and other outreach efforts by the
Ambassador, in addition to running education, cultural, and social media programs and
contributing to reporting. All agency and section heads reported having easy access to the front
office. Relations between the embassy and Consulate General Dubai are productive. This
report’s most significant recommendations concern needed leadership in establishing clear
priorities for the whole mission and managing growth.

         The Ambassador has accomplished much in support of the President’s National Export
Initiative. He has made significant contributions to increased U.S. exports to the UAE as
evidenced by his nomination for the 2013 Charles E. Cobb Award for Initiative and Success in
Trade Development. He interfaces with Fortune 500 firms and has won particular praise for the
assistance he has provided to smaller companies that are less certain of how to conduct business
in the region. Heads of agencies with significant trade and business advocacy responsibilities
characterize the Ambassador as the most engaged chief of mission with whom they have ever
worked. The Ambassador has been a key player in promoting government-to-government
economic dialogue and receives high marks from the local American Chamber of Commerce for
including private-sector considerations at that forum. He attends dozens of trade shows and
assemblies. He is generous in introducing newer U.S. companies to UAE officials.

        The Ambassador knows the region well and is articulate when explaining the nuances of
host country concerns, including in public fora. His outreach includes support for U.S. education
and cultural programs. He attended a major education fair, where via social media he actively
promoted the U.S. presence during this inspection, bringing welcome attention to the 21
participating U.S. universities. He has his own Twitter account and uses it frequently to publicize
outreach events; however, staff expressed that he overtaxes public affairs resources on activities
of low importance to the U.S. Government.

        The Ambassador has integrated Consulate General Dubai more fully into the mission. To
eliminate tensions that existed before his arrival, he holds one country team meeting per month
in Dubai. He encourages senior staff to use the occasion to meet with their counterparts at the
constituent post and with host country contacts in the consular district. This practice has made
the relationship between the embassy and the consulate general more productive.

         The Ambassador’s focus on business has left other elements of the mission somewhat
adrift. Law enforcement, illicit finance, civil society, human rights, and other policy concerns
receive relatively little attention. The law enforcement working group met only once in 2013,
and no agenda or minutes are on file. There has been no formal illicit finance working group
since the arrival of the Ambassador and the deputy chief of mission (DCM), despite the presence
of more than five agencies with responsibility for sanctions, money laundering, and similar
programs. The front office needs to pay greater attention to this cluster of issues.


                                         4
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 1: Embassy Abu Dhabi should establish a schedule of regular meetings for
the law enforcement and illicit finance working groups and the Ambassador or the deputy chief
of mission should attend them. (Action: Embassy Abu Dhabi)

         The Ambassador has led planning sessions with broad participation by sections and
agencies to establish mission goals and objectives. The group produced a list of goals that
includes all mission members’ efforts, and the Ambassador hosted a town hall meeting to share
the results. Despite these efforts, inspectors found that few staff members could identify a
mission goal other than business development. Many section and agency heads said the
objectives list was inclusive but insufficiently prioritized. Some staff reported that country team
meetings routinely focus exclusively on business themes, with only cursory discussion of other
activities.

Recommendation 2: Embassy Abu Dhabi should review mission goals and objectives to make
them easier for staff members to understand and achieve and periodically update them. (Action:
Embassy Abu Dhabi)

        The Ambassador’s calendar reflects many activities in support of business development,
public diplomacy, and contact building. Given his success in establishing himself in business and
government circles, many daytime appointments and evening events should now be delegated to
others in the mission. Doing so would create more desk time for processing paper and making
decisions, and improve front office efficiency. Greater delegation would also create professional
development opportunities for subordinates, which they need but are not getting sufficiently
now. Delegation is particularly important for activities in Dubai, whose principal officer has
enough in-country experience to take on more outside duties. When deciding which events to
attend, the Ambassador should give priority to those with a direct tie to a specific mission goal.
Appointments added to his calendar should be confirmed as quickly as possible to eliminate
unnecessary churn in sections that produce background information and provide other support
for his appointments outside of the embassy.

        One result of the Ambassador’s frequent trips to Dubai and his crowded schedule is a
large number of speeding fines on his vehicle. The mission has asked the host government to
reduce or eliminate these fines in both Abu Dhabi’s and Dubai’s jurisdictions. This practice is
contrary to Department and mission policy.

Recommendation 3: Embassy Abu Dhabi should cease requesting special handling of traffic
fines and process them in accordance with mission policy. (Action: Embassy Abu Dhabi)

        The Ambassador’s extensive network of contacts enables him to obtain useful insights
and information. He regularly shares his findings with select Washington consumers. However,
he does not routinely share this information with his senior staff. Providing more information in
senior staff meetings or giving prompt read-outs directly to section and agency heads would help
address the concern articulated by some staff members that “information flows in only one
direction in this embassy.” Staff in the political/economic section asserted that information from
front office conversations with senior officials and business leaders would enhance the quality
and breadth of their reporting. The front office agreed to do a better job of sharing information
with staff.

                                         5
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The Ambassador has not focused sufficiently on his staff and the internal workings of the
embassy. In OIG-administered questionnaires, his staff rated him below average in every
leadership category. Segments of the embassy community, including first- and second-tour
employees and LE staff, feel under-supported. Staff members reported their belief that the
Ambassador does not spend enough time in the embassy and is disengaged from the community.
Both Department and non-Department staff members assert the Ambassador does not have a full
grasp of the mandate of their office or agency. Several employees reported that the Ambassador
has never visited their offices. These factors, as measured by OIG’s questionnaires and
confirmed by OIG interviews at the embassy, contribute to poor morale. A systemic analysis of
the underpinnings and potential impacts of these concerns is beyond the scope of this
inspection. However, these results suggest the need for a more methodical review.

       Informal Recommendation 1: Embassy Abu Dhabi should schedule periodic town hall
       meetings and brown bag lunches where the Ambassador can have direct contact with
       staff members.

        The DCM had been at the mission for 2 years at the time of the inspection. He is an able
leader and manager, and his extensive experience in the region is an asset. He and the
Ambassador work well together. The DCM’s primary focus is internal leadership and
management, but he has developed a sufficiently broad network in the host government and
business communities to perform effectively as chargé d’affaires.

        The DCM is respected for his sound judgment, fairness, and ability to resolve issues. He
has sought to clarify the Ambassador’s goals and objectives and help section chiefs and agency
heads understand them. He is engaged and has hands-on knowledge of almost every issue and
problem, with one person stating what many expressed in different ways: he is the “glue that
holds the place together.” Senior staff members express appreciation for his open-door policy
and the access it provides.

         Nevertheless, the DCM needs to focus greater attention on LE staff support, mentoring of
first- and second-tour employees, housing, mission expansion, office space, and the DSD
contract.

        Housing affects morale. When the DCM learned that the embassy’s policy of assigning
only Department personnel to government-owned housing did not follow protocol, he followed
the Ambassador’s instructions to expand such assignments to other foreign affairs agencies. He
initiated a mini-town hall with residents of a problematic housing compound to listen to their
concerns, resulting in a visit by the executive office of the Bureau of Near Eastern Affairs to
review the housing situation and issue an alert to the Bureau of Overseas Buildings Operations
about the serious issues there.

National Security Decision Directive 38

        The mission has grown substantially in the last 10 years. The number of direct-hire
Department employees grew from 69 in 2004 to 145 in 2013. Non-Department direct-hire
employees grew from 33 in 2004 to 182 in 2013. In addition, there are 250 LE staff members. A
2012 rightsizing report indicated that personnel growth by 2017 would include another 193
direct-hire employees and approximately 65 LE staff members, bringing the total number of
                                        6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

mission employees to 829. Over the past 5 years, the mission has approved 153 National
Security Decision Directive 38 (NSDD-38) requests and disapproved 42 official requests, as well
as many informal requests.

        As stated in Foreign Affairs Handbook (FAH) 6 FAH-5 H-351.2a., NSDD-38 is the
mechanism by which an ambassador exercises authority to determine the size, composition, and
mandate of U.S. agencies at a mission. The mission’s NSDD-38 process does not accomplish its
purpose. Though the embassy maintains impressive statistics of informal and formal NSDD-38
requests, discussions of staffing are limited to very few people and do not reach the broader
strategic level necessary to determine agencies’ mandates and how the mix of agencies
maximizes U.S. Government interests.

        Now is the time for the embassy and the Department to formulate a vision for the
mission’s future. Both need to determine whether the mission will become a regional platform,
replacing less stable locations, how the mission will be structured and coordinate relationships
among various elements, what it will look like in the future, and what its objectives will be.
Establishing such a vision is foundational to good stewardship of taxpayer dollars.

Recommendation 4: The Bureau of Near Eastern Affairs, in coordination with Embassy Abu
Dhabi, should clarify the embassy’s role as a regional platform. (Action: NEA, in coordination
with Embassy Abu Dhabi)

        A gap between mission needs and administrative support capacity has significantly
diminished mission effectiveness. The increase in LE staffing from 174 in 2004 to 250 in 2013
pales in comparison to the increase in American staffing from 102 to 325 during the same period.
Staffing of management support offices in both Abu Dhabi and Dubai has not maintained pace,
resulting in a severe understaffing of many management functions. This factor negatively affects
morale and is reflected in the low ICASS and inspector work and quality of life scores.

        This issue needs to be addressed by integrating the three planning efforts for outsourced
administrative support, in-house hiring, and space planning that have been moving forward
separately: in December 2011, the DSD contract was awarded to provide administrative support
to some 90 Defense Department employees working on FMS. In June 2012, at the request of the
embassy, the Department undertook a comprehensive rightsizing report that analyzes future
International Cooperative Administrative Support Services (ICASS) needs; and in April 2013,
Department space planners visited the mission to assess how to accommodate the growth
projected in the 2012 rightsizing report. It is now up to mission management and the Department
to develop a concrete plan that defines future administrative support needs.

Recommendation 5: Embassy Abu Dhabi should develop a comprehensive multiyear plan that
provides the mission with sufficient administrative support. (Action: Embassy Abu Dhabi)

       The NSDD-38 process does not include enough participation from ICASS service
providers. Informal discussions with agencies can streamline initial NSDD-38 decisionmaking,
but costs associated with new positions should be calculated from the beginning. Per 6 FAH-5 H-
351.2 b., resolving support issues early in the decisionmaking process allows ambassadors to
base decisions primarily on substantive policy considerations rather than resource considerations.
Discussions that exclude the real costs of establishing and maintaining new positions are flawed.
                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 6: Embassy Abu Dhabi should calculate International Cooperative
Administrative Support Services costs at the beginning of any discussion about new positions.
(Action: Embassy Abu Dhabi)

       Embassy Abu Dhabi has created a process that allows new positions to start up
informally on a temporary duty basis, based on a memo from the Ambassador specifying which
ICASS services these temporary duty employees can use immediately, and which might be
available at additional cost. This process does not allow management sections to plan adequately.
NSDD-38 procedures for temporary duty employees are spelled out clearly in 6 FAH-5 H-
351.2c. Devising a separate process is wasteful, leads to inequitable treatment of agencies, and
does not allow administrative support providers to prepare.

Recommendation 7: Embassy Abu Dhabi should bring its temporary duty processes into
conformity with National Security Decision Directive 38. (Action: Embassy Abu Dhabi)

         The housing arrivals and departures list shows a pattern of new employees arriving with
little notice, including some without NSDD-38 authorization. Per 6 FAH-5 H-351.2d.(5), new
position start dates must be standardized to promote transparency and equity and to project
workload. Per ICASS service standards, housing providers need at least 120 days’ notice to find
lodging for new employees.

Recommendation 8: Embassy Abu Dhabi should bring its timeline for authorizing the arrival
dates of new employees into conformity with National Security Decision Directive 38 and
International Cooperative Administrative Support Services guidelines. (Action: Embassy Abu
Dhabi)

        The mission has no written policy on adding new LE staff positions. Per 6 FAH-5 H-
351.2a., the NSDD-38 process applies to direct-hire, full-time, permanent positions staffed by
U.S. citizens and foreign nationals. The lack of a formal approval policy for LE staff positions
hinders planning and the ability to distribute costs equitably.

Recommendation 9: Embassy Abu Dhabi should implement a policy on new locally employed
staff positions, including charging for initial costs of the positions. (Action: Embassy Abu
Dhabi)

Defense Support Division Contract

       Embassy Abu Dhabi and the Department determined that the existing ICASS support
platform could not handle a large and rapid influx of FMS personnel and in 2011 created the
DSD platform to augment embassy services. The DSD contract provides traditional ICASS
administrative support services to approximately 90 FMS personnel; most of them arrived in
2012 and 2013. That number is expected to increase. The contract is for approximately
$34 million over 5 years. The UAE Government pays for the contract. The embassy is
responsible for overseeing it.

        OIG inspectors identified several problems with the contract. It has led to unexpected
costs to the U.S. Government and creates a burden for embassy management staff. Oversight is
weak.
                                        8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Purpose

       The DSD contract was designed to support up to 400 FMS personnel for a period not to
exceed 5 years, thus giving the embassy time to acquire sufficient ICASS staff to support them.
The Department is now considering expanding the DSD contract to support approximately 23
Department of Homeland Security personnel. The ramifications of including another agency
have not been fully explored.

Implementation

        The embassy has expended significant resources trying to make the DSD contract work,
but FMS employees and embassy support staff interviewed by the OIG team overwhelmingly
agree the contract is not working as intended and is a divisive influence within the mission.

        Although DSD is designed to provide the administrative support needed by FMS staff,
the embassy provides substantial assistance to the contractor and at considerable cost. Embassy
ICASS service providers assisted with contract start-up beginning in 2010 and estimate they
spent 5,000 hours (equivalent to two full-time positions) per year assisting the contractor in
FY 2012 and FY 2013. The management counselor, in her role as contracting officer’s
representative (COR), estimates she spent approximately 50 percent of her time over the last
2 years on DSD and that the former financial management officer spent 20 percent of his time on
DSD. The senior budget analyst estimates spending 50 percent of his time on DSD. Voucher
processing staff and facilities maintenance make-ready staff also provide DSD services. Embassy
ICASS staff providers continue to spend considerable time training and assisting DSD contract
service providers in basic functions of the contract. The embassy has not been reimbursed for
these services.

        The consensus among many embassy and FMS staff interviewed by OIG inspectors is
that support for FMS personnel should be provided either by DSD or by the embassy through the
ICASS framework and that the current hybrid platform results in duplication of effort, confusion
for FMS staff, and differing standards of service.

Management and Cost

       The UAE Government funds the contract, but the embassy manages it. According to a
March 2011 memorandum of understanding between the embassy and the Department of
Defense, the Ambassador is responsible for ensuring that the quality, quantity, and cost of
support provided by the contractor matches the support provided to embassy staff through
ICASS. The Ambassador is also responsible for reviewing performance standards to assess the
services provided by DSD. At the time of the inspection, no cost audit had been planned or
performed.

       In determining the cost of support provided by the contractor and comparing it to the cost
of embassy ICASS services, the time provided by embassy employees in assisting the contractor
should be accounted for.




                                        9
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Oversight

        Extensive interviews with staff indicate that embassy leadership and staff members do
not fully understand the DSD support arrangement. The embassy has received no firm estimate
of the numbers of future FMS personnel who will need support, where they will be located, and
what support they will require. The Department has received personnel projections and
estimates, but has not shared them with the embassy. Without this information, the embassy can
neither establish its own estimates of ICASS personnel needed, nor plan a timeline for the
transition from DSD to traditional ICASS support, if that is what is intended.

         The management officer serves as COR for the DSD contract and has been unable to
devote enough time to the duties outlined in 14 FAH-2 H-142b. The embassy has not designated
a contracting officer’s technical monitor. The COR signs invoices from the contractor each
month without the benefit of having an on-site monitor. Inadequate contract oversight creates a
risk of the Department paying unjustified costs.

Recommendation 10: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Administration, should develop a timeline for the Department of Defense to provide a full-time
contracting officer’s representative to Embassy Abu Dhabi to oversee the Defense Support
Division contract. (Action: NEA, in coordination with A)

Recommendation 11: The Bureau of Administration, in coordination with Embassy Abu Dhabi,
should designate a contracting officer’s technical monitor in accordance with the terms of the
Defense Support Division contract. (Action: A, in coordination with Embassy Abu Dhabi)

        The Department has not conducted a comprehensive review to address uncertainties over
cost, quality of service, oversight, and the future of the DSD contract. A full review would
include an independent audit to determine actual costs to the U.S. Government and to assess
whether funds expended under the contract conform to Federal contracting regulations. It would
include a 5-year staffing projection and an assessment of whether services provided by DSD are
comparable in cost and quality to those provided to embassy employees under ICASS. Finally,
the review would need to determine whether the contract will be continued or expanded to
include other agencies, such as the Department of Homeland Security, or discontinued and its
responsibilities given to the embassy.

Recommendation 12: The Bureau of Near Eastern Affairs, in coordination with Embassy Abu
Dhabi and the Office of the Under Secretary for Management, should conduct a review of the
Defense Support Division contract that addresses quality of service and whether the contract
should be continued or its obligations assumed by the embassy. (NEA, in coordination with
Embassy Abu Dhabi and M/PRI)

Recommendation 13: The Bureau of Near Eastern Affairs should hire an independent auditor to
determine whether actions taken and monies expended under the Defense Support Division
contract conform to U.S. Government contracting regulations and to identify the actual costs to
the U.S. Government of the contract to date, including embassy staff time. (Action: NEA)




                                      10
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        Embassy Abu Dhabi’s political and economic sections became a joint office in 2011. The
economic counselor position was converted into the political/economic counselor position to
oversee the economic and political chiefs. A political/military officer also reports to the
political/economic counselor. Section personnel cover a range of issues pertaining to the bilateral
relationship, as well as regional and global initiatives in which the UAE is becoming an
increasingly active participant. In addition, staff members participate in the mission’s
interagency commercial task force and take an active role in export promotion. They also serve
as the primary source of control officers for the many senior U.S. visitors who come to Abu
Dhabi for bilateral discussions or who transit the city for meetings elsewhere. In the November
2012 rightsizing review, the embassy requested additional staff to support the political/economic
section’s activities. The OIG team concurs with this request.

Reporting and Analysis

        The OIG team’s review of the section’s reporting for January to October 2013 confirmed
the political unit’s efforts to keep Washington decisionmakers updated on political and human
rights-related developments, including the arrests and convictions of alleged seditionists.
Conversely, after the conversion of an economic officer position to lead the combined section,
the volume of reporting on economic, global, and other political issues has decreased.
Washington readers reported that the quantity of economic reporting has declined since 2011
when the political and economic sections merged.

      The section’s reporting needs broader sourcing and more analysis, according to
Washington consumers. The inspection team’s review validated this assessment.

        The OIG team’s interviews with section staff suggest underuse of some political
reporting officer resources, especially during non-peak periods for visitor support or
legislatively-mandated reports. In addition, staff expressed confusion over portfolios, especially
on topics with overlapping political and economic implications. A review of portfolios and
reporting responsibilities could address such issues.

         Staff indicated that it is difficult to focus on reporting responsibilities because of the time
dedicated to visitor support and demarche requirements. The front office itself has relayed to its
staff, and to the OIG team, that it sees the mission’s primary function as operational, rather than
reporting. Each of the section’s two units has a separate, informal document to guide its staff on
possible reporting themes; neither document provides a specific timeline to assist staff in
prioritizing its work.

Recommendation 14: Embassy Abu Dhabi should implement a comprehensive reporting plan.
(Action: Embassy Abu Dhabi)




                                         11
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Records Management

         The OIG team’s review of unclassified electronic files showed three sets of files: one for
each of the previously separate political and economic units and a third created following the
section’s consolidation. The third, joint set of files follows the Department’s standardized filing
process only partially. Gaps in these files also suggest that some section staff may either still be
storing their records and drafts in individual computer files and folders or are continuing to use
the other two sets of files, some of which contain documents that date back to 2003. The section
does not use or preserve record emails. According to Foreign Affairs Manual (FAM) 5 FAM
433, 5 FAM 441, and 5 FAM 443, written material, including electronic mail records, is to be
organized as official records by traffic analyses by geography and subject (TAGS) terms and
retired in accordance with the appropriate records disposition schedule. The inspection team
found similar shortcomings at Consulate General Dubai.

Recommendation 15: Embassy Abu Dhabi should require political and economic staff in the
mission to use a standardized filing system in shared section files. (Action: Embassy Abu Dhabi)

Leahy Vetting

        Embassy Abu Dhabi has two Leahy vetting officers, both in the political/economic
section. The primary coordinator has completed training, but the secondary coordinator has not.
In 2012, the embassy vetted 237 individuals. Although the number of cases is unlikely to
increase significantly in the future, the mission would benefit from establishing standard
operating procedures for Leahy vetting.

Sanctions/Terrorist Financing

       The political/economic section coordinates with other agencies on sanctions and terrorist
financing issues. In addition, the section works with other embassy offices to compile
information for the money laundering and financial crimes portions of the annual International
Narcotics Control Strategy Report. Both the political/economic section and other agencies
expressed interest in holding regular meetings of embassy offices that cover illicit finance. Such
discussions would address policy issues related to illicit finance and supplement the mission’s
law enforcement working group meetings, which tend to focus on the different law enforcement
cooperation activities in which U.S. agencies are engaged with the UAE Government.

Countering Violent Extremism

        Embassy Abu Dhabi does not have a working group on countering violent extremism. It
is coordinating with the UAE Government to implement initiatives consistent with the issue
through the International Center of Excellence for Countering Violent Extremism or “Hedayah,”
which the UAE offered to host following the 2011 Global Counterterrorism Forum ministerial
meeting in New York. Creating a working group on this issue merits consideration.




                                        12
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Consular Affairs

        Demand for consular services in both Abu Dhabi and Dubai has grown significantly in
recent years. Both are making good progress in the transition from small-scale, personalized
service to medium-sized, high productivity operations. Frequent pressure for intervention and
special handling for routine visa cases throughout the mission, including the front office,
hampers this transition.

Country Coordination

        Both the consular chief in Abu Dhabi and the consular chief in Dubai are FS-01
positions, with the consular chief in Abu Dhabi designated as the country coordinator. The
country coordinator travels regularly to Dubai, and the two have a good professional
relationship. However, the OIG team noted several differences between the two consular
operations in terms of training, duty officer procedures, warden systems, public correspondence,
and other aspects for which greater coordination would be appropriate. The OIG team counseled
consular management on ways to enhance cooperation.

        When the country coordinator is absent from Abu Dhabi, there is no procedure to
designate an acting consular country coordinator. An acting country coordinator is necessary to
deal with issues that involve both Abu Dhabi and Dubai, and the embassy would benefit from
adopting standard procedures for designating an acting coordinator when the coordinator is
absent.

Visa Referrals

        The steady stream of inquiries from other parts of the mission for updates and special
handling of otherwise routine visa cases hampers efforts in both Abu Dhabi and Dubai to provide
efficient services for all consular clients and are in direct violation of Department regulations.
The OIG team observed many examples of these inquiries via phone and email during the
inspection.

        Pressure to handle routine nonimmigrant visa cases in a special or expedited fashion has
the effect of slowing down the entire standard process in both locations, undermining
cooperation and trust between the consular sections and other parts of the mission, and creating
an appearance of impropriety. Responding to these inquiries, often from multiple sources relating
to a single case, distracts consular chiefs from managing the day-to-day operations of the
sections. These inquiries are being made in violation of 9 FAM Appendix K, which permits
advocacy only through a formal referral process. Both consular sections should familiarize all
staff with this policy.

Recommendation 16: Embassy Abu Dhabi should implement the worldwide visa referral policy
to mandate that all visa case advocacies be handled through the referral system. (Action:
Embassy Abu Dhabi)




                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Iranian Visas

        There is no U.S. facility in Iran where Iranians can apply for visas. Dubai adjudicated
25,000 Iranian nonimmigrant visa cases in FY 2013, more than any other U.S. mission in the
world. Abu Dhabi is also one of the principal missions for handling Iranian immigrant, diversity,
and fiancé visas, with 3,534 Iranians scheduled (out of 5,445 total applicants or 65 percent of the
Abu Dhabi workload) in FY 2012 and 3,649 in FY 2013.

         Other locations that handle a significant number of Iranian visa cases include Ankara,
Yerevan, Toronto, Vancouver, and Ashgabat. There is strong informal coordination at the
working level among the primary missions handling Iranian cases. The visa office in the Bureau
of Consular Affairs conducts periodic conference calls to share information and practices. The
Office of Iranian Affairs maintains a consular page as part of its SharePoint site. However, the
lack of clear senior-level ownership of consular issues relating to Iranians has resulted in
differing interpretations at various missions of the very complex and multilayered requirements
for these visa cases. There is no enforcement mechanism to ensure consistency and no advocate
for training or coordination regarding Iranian consular issues. The Bureau of Consular Affairs
has been slow to address emerging concerns, such as passports of convenience.

Recommendation 17: The Bureau of Consular Affairs should designate a senior level
coordinator for Iranian consular issues and provide an appropriate budget to support travel and
training. (Action: Bureau of Consular Affairs)

Global Support Strategy

        In January 2013, Abu Dhabi joined the Global Support Strategy system, which provides
contracted consular services. The preparation and initial launch went smoothly. Interaction with
the service provider is good. The advent of improved appointment and information services and
the provision of on-site greeters in the Abu Dhabi and Dubai waiting rooms have led to shorter
wait times for appointments and faster interviews.

        The exception to the smooth launch of this new system is the immigrant visa unit. The
original plan was for Iranians resident in Iran to register for courier service prior to their
appointments in Abu Dhabi. The service would then deliver immigrant visa packets back to Iran.
The inability to advise applicants of the need to register for the courier service prior to their
interview and several incidents involving the mishandling of issued visa packets caused Abu
Dhabi to terminate use of the courier service. The consular section returned to its previous
procedure of requiring applicants or their representatives to pick up the packets in person.

Fraud Prevention

       Fraud prevention officers in both Abu Dhabi and Dubai complete required reporting on
time. Both posts are considered low-fraud, although the high percentage Iranian visa applicants
and those from other countries require continued attention. The OIG team counseled
management on the advantage of coordinating certain validation studies between the posts.




                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Visas Viper

        Abu Dhabi and Dubai each conduct monthly visas viper meetings and prepare required
reports. Abu Dhabi submitted three names in the past year; Dubai submitted one.

Abu Dhabi Consular Management Issues

        Abu Dhabi’s workload continues to grow. Nonimmigrant visa demand increased 37
percent from 24, 080 in FY 2012 to 32,974 in FY 2013. This represents a 171 percent increase in
the past 5 years, and there is no indication of any slowdown. During the same 5 year period,
immigrant visa workload rose 23 percent (5,652 to 6,630) and American citizens services, such
as passport applications, increased nearly 75 percent (1,219 to 2,102). Recent improvements to
the visa clearance process and the rollout of the Global Support Strategy have enabled the
embassy to keep up with this demand. Current requests to add an additional interview window
and to expand staffing by one officer and one LE staff are justified.

        In the face of this growth, Abu Dhabi is systematizing a number of procedures and
processes previously handled on a case-by-case basis. The OIG team discussed several possible
enhancements to the applicant workflow and how an existing external waiting area might be put
to better use. There are still very few written standard operating procedures. This shortcoming
has had a detrimental impact on the training and orientation of new employees.

Recommendation 18: Embassy Abu Dhabi should implement standard operating procedures for
all aspects of its consular operations. (Action: Embassy Abu Dhabi)

        The section previously established a very flat organizational structure, with LE staff
rotating among various consular functions. This system has now returned to a specialized, unit-
based structure. With this restructuring and the section’s plan to establish new positions to deal
with the growth, a number of position descriptions are outdated and inaccurate. A similar
situation exists in Consulate General Dubai’s consular section.

Recommendation 19: Embassy Abu Dhabi should review and update position descriptions in
the mission’s two consular sections and establish a system for regular review. (Action: Embassy
Abu Dhabi)

Abu Dhabi Immigrant Visas

        Contracts with panel physicians were out of date and consular officers had not conducted
recent visits to their offices. Embassy Abu Dhabi and Consulate General Dubai were in the
process of correcting this at the time of the inspection.

       Informal Recommendation 2: Embassy Abu Dhabi should update contracts with all
       panel physicians and schedule visits to their offices.




                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Abu Dhabi American Citizens Services

       The American citizens services workload is relatively small but growing. All services are
by appointment.

        The process for providing consular services to the embassy community is not optimal.
For reasons of access control, embassy personnel and family members have to exit the building,
walk to the consular section entrance, and enter the public waiting area to apply for passport
renewal or a notarial service. Installing an interview window and pass-through tray in the access
control door between the consular section and the rest of the embassy would alleviate the
problem.

        The UAE Government does not always provide timely notification of the detention or
arrest of American citizens. The consular section and the embassy law enforcement community
continue to work on this issue.

Public Diplomacy

        The public affairs sections in Abu Dhabi and Dubai operate in an increasingly restrictive
social and political environment, but benefit from experienced LE staff and the strong appeal of
U.S. education. The Arab Spring increased government sensitivity to programs addressing
reform, human rights, and civic activism, which has affected some public diplomacy programs
and shut down related ones, such as the Middle East Partnership Initiative (MEPI) grants within
the UAE. Using their extensive travel and broad contacts, members of the section have made
significant contributions to embassy reporting.

         A mid-level officer directs Embassy Abu Dhabi’s public affairs section. The information
officer, cultural affairs officer, and Dubai public affairs officer are on their first or second tours.
Neither the information officer nor the cultural affairs officer has direct supervision over LE staff
in their sections; the public affairs officer rates the cultural and media specialists.

       Informal Recommendation 3: Embassy Abu Dhabi should give supervisory authority to
       the information and cultural affairs officers in the public affairs section.

Media Affairs

        The information officer and an experienced LE media specialist provide daily media
summaries for the front office and other sections of the embassy; the Ambassador does not ask
for a daily press briefing. The section has made good use of social media, with a large increase in
followers. The section is looking for ways to augment the effectiveness of its social media tools.
Other sections of the embassy could contribute to this effort by providing public affairs with
media feeds.

       The public affairs section in Abu Dhabi handles media issues throughout the country,
bypassing Consulate General Dubai. As a result, staff members from Abu Dhabi travel
frequently to media-rich Dubai to manage media outreach. It would be more efficient to assign
the consulate general responsibility for media outreach in its consular district.

                                        16
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 20: Embassy Abu Dhabi should assign media responsibilities in the Dubai
consular district to the consulate general’s public affairs section. (Action: Embassy Abu Dhabi)

Educational and Cultural Programs

       While the International Visitor Leadership Program operates effectively, U.S.-funded
exchange opportunities are not always attractive to a small, affluent Emirati population that has
many other options. The public affairs section has leveraged UAE money to fund
some Voluntary Visitor programs, such as a recent group from the Federal National Council, the
country’s parliament. The Fulbright program has suffered cancelations but the section has had
some success in finding new partners.

       The public affairs section has created an alumni coordinator position to update and build
an alumni database. Improved alumni follow up across all exchange programs would strengthen
the embassy’s outreach base.

       After its successful Access program, an English language program targeted at
disadvantaged youth, closed in 2012, public affairs was unable to restart similar outreach; the
Bureau of Educational and Cultural Affairs rejected the embassy’s proposal as too expensive.
While many Emiratis are wealthy, there are low-income citizens who could benefit from the
opportunities provided by Access classes.

Recommendation 21: Embassy Abu Dhabi, in coordination with the Bureau of Educational and
Cultural Affairs, should design an English language learning program targeted at low-income
populations. (Action: Embassy Abu Dhabi, in coordination with ECA)

Information Resource Center and American Corners

        The Information Resource Center contains books, educational information, meeting
space, and offices for its director, educational advisor, and alumni coordinator. Although there is
no public access, the center is used by appointment for educational advising, ambassadorial
interviews, journalist training, and library programs.

         The center director supervises three American Corners, one in the city of Abu Dhabi and
two elsewhere in that emirate. There is no American presence in the northern emirates and the
embassy should consider ways to reach the population there. With limited public access and
facilities, none of the existing corners meets new programming standards for American Spaces.
The public affairs section could provide more low-cost outreach programs for the corners and
other local institutions by recruiting embassy staff as speakers on topics of mutual interest.

Recommendation 22: Embassy Abu Dhabi should implement a program to use embassy
officers as speakers for outreach programs at American Corners. (Action: Embassy Abu Dhabi)

Middle East Partnership Initiative

        Embassy Abu Dhabi houses MEPI’s eight-person regional office. The regional office is
responsible for more than $2 million in local grants in six countries, while Washington handles
larger grants conducted by U.S. and international nongovernmental organizations.
                                       17
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       In October 2012, the UAE government directed MEPI to end all grants within the
country. With the suspension of grants in the UAE and increased restrictions elsewhere, the OIG
team questions the justification for a regional MEPI office in Abu Dhabi. Closing the office
would save approximately $1.5 million.

Recommendation 23: The Bureau of Near Eastern Affairs should close the Middle East
Partnership Initiative regional office in Abu Dhabi. (Action: NEA)




                                      18
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Consulate General Dubai
       Dubai is often described as the “New York City” of the UAE, with Abu Dhabi being the
Washington, DC, equivalent. This analogy is important for understanding the responsibilities of
the consulate general and the dynamic between it and Embassy Abu Dhabi. The consulate
general is larger than many embassies and hosts 11 U.S. Government agencies with a broad
range of interests. It is an important part of the mission and key to the embassy’s ability to
advance U.S. interests.

        The principal officer represents the U.S. Government not only in Dubai but in five other
northern emirates. The position is ranked at the FS-01 level. Given the size of the consulate
general, its importance among the six emirates in its consular district, and the importance of rank
in the UAE, the principal officer position should be at the Senior Foreign Service level with
work requirements accurately reflecting the responsibilities of the position.

Recommendation 24: The Bureau of Near Eastern Affairs, in coordination with Embassy Abu
Dhabi and the Bureau of Human Resources, should review the work requirements and change
the grade level of the principal officer position as appropriate. (Action: NEA, in coordination
with Embassy Abu Dhabi and DGHR)

       The principal officer has focused on bolstering morale and improving productivity.
Consulate general employees have responded positively to his efforts, but there is more to be
done. He needs to reach out regularly to segments of the community such as first- and second-
tour employees, LE staff, and eligible family members.

       The principal officer works well with the Ambassador and the DCM. He coordinates with
them on virtually all policy and resource issues. Now that he has solidified his internal role, he
needs to continue his efforts to seek out further public diplomacy opportunities, especially in the
Emirates of Ajman, Um al-Quwain, and Fujairah. He is ready to take on more meetings and
representational events delegated by the Ambassador, and in doing so will expand the consulate
general’s contact base.

Dubai Political/Economic Section

        Consulate General Dubai’s joint political/economic section is responsible for reporting on
six emirates, including Dubai, which together account for approximately half the country’s
population. The section has the lead for drafting the annual Investment Climate Statement and
International Narcotics Control Strategy Report, Volume 1 (Drugs and Chemical Controls). In
addition, the presence of the UAE Department of Foreign Affairs’ Export Control Executive
Office in Dubai means that consulate staff members play a key role strengthening U.S.-UAE
nonproliferation efforts. As Dubai is a regional hub for commercial trade shows,
political/economic officers frequently support U.S. private sector participants.

        Dubai is also a transportation hub, especially for official U.S. visitors traveling to and
from Afghanistan and Pakistan and section officers support an even heavier visitor workload
than their counterparts in Abu Dhabi. Between September 2012 and August 2013,
political/economic officers served as control officers for 66 of the 126 official visits requiring

                                        19
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

consulate general support. Many visits involved night flights and weekend travel. To assist
officers with visit support, the embassy front office has agreed in principle to fund an
administrative assistant position in the political/economic section for an eligible family member.
The OIG team endorses this decision. As noted earlier, the OIG team counseled mission
management on the need to establish guidelines to determine which official visits warrant control
officer support.

        The OIG team reviewed the section’s reporting for February–October 2013. Nearly one-
quarter of its 69 cables were related to demarches or meeting readouts. Four were joint cables
with the Abu Dhabi political/economic section, while eight were monthly cables that contained
brief write-ups on a multitude of topics. Section staff described to the OIG team the challenges
of finding time to do spot reporting, let alone the analytical reporting, that Washington
consumers seek. The section has a 2013–2014 reporting plan tied to the 2013 mission objectives,
which lists mandatory reports and potential reporting topics. However, the plan does not provide
specific deadlines to help staff prioritize its work.

        Coordination on reporting between the Abu Dhabi and Dubai political/economic sections
generally takes place with few problems. However, section staff indicated that the consulate
general is not always included on Department cables in which Dubai may have interest or
potential input. As a result, staff either has insufficient time to provide input or does not have the
opportunity to contribute to the embassy’s response.

Recommendation 25: The Bureau of Near Eastern Affairs should include Consulate General
Dubai on relevant policy-related cables. (Action: NEA)

Dubai Consular Affairs

        Dubai’s consular section faces many of the same issues as Abu Dhabi. New visa
clearance procedures and the rollout of the global support strategy improved productivity.
Dubai’s move to a new consulate building alleviated many space and workflow problems and
provided room for the consulate general to address growth in demand for consular services.
From FY 2012 to FY 2013 nonimmigrant visa applications jumped from 41,906 to 60,820.
Demand for passports and reports of birth rose 18 percent and 13 percent, respectively. The
recent addition of two full-time officer positions and planned additional LE staff positions appear
justified. The OIG team counseled management on ways to improve workflow and to make
better use of an outdoor waiting area. Dubai is in the process of updating its standard operating
procedures.

       A concern specific to Dubai is the lack of drinking water in the consular section waiting
room. The rest of the consulate general has ready access to drinking fountains, but the waiting
room has none. Applicants, whether Americans or others, must wait in line outside in the heat
and are not permitted to bring liquids with them; water is available only by purchasing it at a
snack bar.

Recommendation 26: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abu Dhabi, should install a water fountain in the Dubai consular section waiting room.
(Action: OBO, in coordination with Embassy Abu Dhabi)

                                        20
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Nonimmigrant Visas

        The Dubai visa workload breaks down as follows: 50 percent Iranian nationals; 38
percent third country nationals, mostly living and working in the UAE; and 12 percent UAE
citizens. The section has an Iranian visa sub-unit to deal with the complexities of that particular
population.

       The consular section has a large number of category one refusal files that have not been
reviewed or scanned into the automated consular systems.

Recommendation 27: Embassy Abu Dhabi should require Consulate General Dubai’s consular
section to review all category one visa refusal files for completeness and scan them into the
consular automated systems. (Action: Embassy Abu Dhabi)

Dubai Public Diplomacy

        The Department, under Diplomacy 3.0, established the Dubai public affairs officer
position as entry level for two rotations. At least partly as a result, the small Dubai public affairs
section carries little weight in the consulate general and has little impact outside. The section,
which has no media responsibilities, mainly administers exchange and cultural programs
developed elsewhere. The educational advising center is used roughly once a week. In addition
to giving the Dubai public affairs section greater responsibility for media relations, the embassy
should consider other ways to use it to better advantage.
        The consulate general also hosts a regional media hub whose two officers travel
frequently to appear on Arabic media; the hub operates social media programs as well. The
Bureau of Public Affairs supervises the hub’s day-to-day activities.

Dubai Information Management

        Both the 2012 rightsizing report and the embassy’s FY 2014 Mission Resource Request
assert that in view of rapid growth, the consulate general needs a second information
management specialist. The OIG team concurs.

Diplomatic Mail and Pouch Operations

        The consulate general relies on Embassy Abu Dhabi’s diplomatic post office, an
arrangement that delays the flow of mail to and from the consulate general. With approximately
113 customers at the consulate general, and because Dubai has its own international airport, the
embassy and the Bureau of Administration’s office of logistics management should consider
establishing a separate diplomatic post office in Dubai to improve quality of life for consulate
general staff.

Recommendation 28: Embassy Abu Dhabi, in coordination with the Bureau of Administration,
should conduct a feasibility study on establishing a diplomatic post office for Consulate General
Dubai. (Action: Embassy Abu Dhabi, in coordination with A)

        Mail screening procedures at Dubai are satisfactory, but the screening facility itself is not
in an area with a separate ventilation system to comply with 14 FAH-4 H-121.1 standards.
                                        21
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 29: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should bring the mail screening facility at Consulate General Dubai up to
standards or install a stand-alone mail-screening unit. (Action: Embassy Abu Dhabi, in
coordination with OBO)

Dedicated Internet Networks

        Consulate General Dubai has nine dedicated Internet networks, but only one is registered
with the Department. The IM staff has designed a plan to bundle the nine dedicated Internet
networks into one. When the consulate general has implemented that plan, it should re-register
the single dedicated Internet network. Otherwise, it needs to register each individual dedicated
Internet network separately in accordance with 5 FAM 872.1.

Information Systems Security

       The information management specialist in Dubai is the designated alternate information
systems security officer but has not completed the required information assurance training
provided by Bureau of Diplomatic Security. In accordance with 5 FAM 845, he should be
scheduled for the training as soon as possible.

Recommendation 30: Embassy Abu Dhabi should schedule the designated alternate information
systems security officer at Consulate General Dubai for information assurance training. (Action:
Embassy Abu Dhabi)

Broadcasting Board of Governors

        The Middle Eastern Broadcasting Network (MBN)-Dubai is licensed as a production
center, producing one daily show and two weekly shows. Most of the creative and editorial
control comes from headquarters in Springfield, Virginia. MBN-Dubai also produces some local
reporting and supports other MBN news bureaus in the Middle Eastern region. MBN-Dubai has
61 employees who focus on Alhurra television programming and a contractor who works for
Radio Sawa. Radio Free Europe/Radio Liberty has a correspondent for Radio Farda who also
reports for Voice of America’s Persian News Network. Having these broadcasting entities
reporting from the same location implements, in part, the goal of coordination between the
Broadcasting Board of Governors (BBG) networks, as stated in the BBG Strategic Plan 2012–
2016, Impact Through Innovation. Despite the implementation of this particular strategic goal,
many MBN employees in Dubai are unfamiliar with the details of BBG’s 5-year strategic plan.

         Operating in the UAE comes with restrictions that have caused difficulties for MBN on
more than one occasion. After MBN-Dubai reported a local story that reflected negatively on the
UAE, UAE Government officials withheld MBN’s shooting permit for a month and conducted a
strict assessment of satellite dishes on the roof of the building where the production center is
located. On another occasion, the UAE National Media Council summoned the embassy press
officer in Abu Dhabi to complain that MBN had violated media rules because of a critical local
report.

      The relationship between MBN and the Department is collaborative. The Department’s
Bureau of Public Affairs Media Hub in Dubai stressed its positive working relationship with
                                      22
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

MBN and expressed gratitude for the training it provides to Middle Eastern regional public
affairs officers.

        The major management challenge for MBN is dissatisfaction of MBN-Dubai staff with
their level of compensation and benefits and especially a lack of any salary increases in the past
4 years. The MBN-Dubai production center director reported that a few employees have left for
better paying jobs. MBN completed a compensation analysis and conducted appropriate pay
adjustments in 2011. Dissatisfaction with staff compensation is a result of the budget challenges
and pay freezes over the past several years. In FY 2014, MBN management will strategize to
address this issue. A compensation analysis review is scheduled for later in 2014.




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


Resource Management
                Agency                    U.S.      U.S.    Foreign    Total    Total
                                         Direct-   Local-   National   Staff   Funding
                                          Hire      Hire     Staff             FY 2013
                                          Staff     Staff
Department of State
Diplomatic and Consular Programs              76       2         18      96     $8,406
ICASS                                         10      31        108     149    $21,678
Consular Affairs                              14       6         20      40     $3,765
Public Diplomacy                               6       2         10      18     $1,504
Diplomatic Security                           13       3          5      21     $2,370
Marine Security                               24                  5      29       $317
Representation                                                                    $301
Overseas Buildings Operations                                                  $10,184
Media Hub                                      2                  2       4       $669
Department of Agriculture
Foreign Agriculture Service                    1                  4       5       $420
Department of Defense
Defense Attaché Office                         7                  1       8       $648
Defense Security Cooperation                  13       2          3      18     $2,717
U.S. Marine Corps                              1                          1     $2,706
U.S. Naval Forces Central Command *           12                         12     $1,320
Air Force U.S. Central Command                 1                          1       $134
U.S. Central Command - Operations and
Maintenance                                    5                          5        $68
Troop Support Europe and Africa                1                          1        $90
Naval Criminal Investigative Service *         6       1                  7       $740
Naval Supply Systems Command/MSC-Dubai         3                  3       6       $733
Defense Support Division Agencies
Army - Security Assistance Training
Management Organization                        2                          2       $100
Security Assistance Training                   7                          7       $255
U.S. Army Corps of Engineers                   5                  3       8       $750
U.S. Army Aviation & Missile Command
(AMCOM)                                        1                  3       4       $420
Air Force Language Training-
Defense Language Institute                     3                          3       $461
Extended Training Services                    17                         17     $2,858
AFCENT Air Warfare Center*                    23                         23     $2,530
AMCOM Patriot*                                 2                          2       $220
FMS Case P-TAM                                39                         39     $1,000
Disposition Service-
Defense Logistics Agency                       4                          4       $400

                                 24
                     SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

 Department of Justice
 Drug Enforcement Administration                                  6                     1           7     $600
 Federal Bureau of Investigation
 Legal Attaché Office                                             3                                 3     $245
 Office of Overseas Prosecutorial
 Development, Assistance and Training *                           1                     1           2     $167
 Department of Homeland Security
 Homeland Security Investigations                                 6         2           3          11     $758
 Container Security Initiative*                                   2                                 2     $200
 Transportation Security Administration                           2         1                       3     $670
 Foreign Agriculture Service
 Global Market                                                    3         1           8          12    $1,149
 Department of Transportation
 Federal Aviation Administration                                  1                     1           2     $174
 Department of Interior
 U.S. Geological Survey                                           3                                 3     $300
 Department of Treasury
 Office of International Affairs                                 2                     1        3          $320
 Totals                                                        327         51        200      578       $72,346
*Organizations not wanting to provide funding information - cost calculated on known cost basis.

Management Overview

         Consulate General Dubai’s move to new facilities in 2012 has improved its work
environment dramatically, but Embassy Abu Dhabi needs space planning and substantial
upgrades to building infrastructure. Both the embassy and the consulate general need additional
staff to manage visits. ICASS staff shortages have seriously weakened management controls and
eroded customer service.

Staffing

        Staffing of the management support offices in both Abu Dhabi and Dubai has not
maintained pace, resulting in a severe understaffing of many management functions. This
situation negatively affects morale and is reflected in the low scores that management services
received in recent ICASS surveys and OIG questionnaires.

Abu Dhabi-Dubai Coordination

        Abu Dhabi and Dubai signed a memorandum of agreement August 30, 2013, that
provided general guidelines for areas of responsibility and addressed operational and
administrative duties between the two entities. The agreement acknowledges prior disagreements
and confusion relating to the responsibilities of employees in some management sections,
particularly finance and human resources. The confusion was due largely to management
understaffing in Dubai. The OIG team concluded that this agreement will improve the often
sensitive and complicated relationship between a large embassy and a large consulate general

                                           25
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

with few management resources. The agreement does not preclude the need for additional
management resources in Dubai.

       The OIG team suggested two improvements to the agreement. The agreement addresses
embassy visits to the consulate general but does not specifically consider consulate general
employees visiting the embassy. Doing so would enable consulate general employees to meet
with several employees during one visit. The inspectors also suggested it would be advantageous
to have the agreement approved by the DCM in Abu Dhabi and the principal officer in Dubai.

Real Property

       The embassy facility was built in 2003. The Dubai consulate general facility was
occupied in 2012. Both are well maintained.

       Staff residences are short-term leased with the exception of 12 government-owned
condominiums in the Al Reef compound. These were purchased and paid for in 2010, when Abu
Dhabi was rapidly expanding toward a planned “capital district” near the international airport.
With the financial downturn, the expansion stalled, leaving Al Reef residences in an area with no
services or businesses.

Recommendation 31: Embassy Abu Dhabi should stop assigning new employees to the Al Reef
condominiums. (Action: Embassy Abu Dhabi)

       There are no approved medical facilities in the area. Embassy employees have had
negative experiences with medical services in the area, and there is no prospect of developing
services there in the foreseeable future. Assigning employees to housing in Al Reef is
disadvantageous to them, inequitable, and potentially dangerous to them in a medical emergency.

Recommendation 32: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should sell the Al Reef condominiums at the earliest opportunity. (Action:
Embassy Abu Dhabi, in coordination with OBO)

General Services

        The biggest challenges of the general services office are the lack of appropriate
warehouse space and the difficulty in holding landlords accountable for make-ready and
maintenance of leased property. The lack of appropriately located and configured storage space
has serious implications for operations and internal controls. Substandard residential
maintenance diminishes employee morale and safety.

Warehouse and Supply Chain Management

       The embassy leases 18 storage pods, and the consulate general 23, in the port of Jebel Ali
outside Dubai. The pods are similar to personal storage units, or large shipping containers. The
small cadre of embassy and consulate general warehouse employees drive 1 to 2 hours each way
to manually load and unload items from the pods.


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The embassy’s attempts to use locally leased furniture failed, because of low quality and
high prices. Mission UAE is implementing furniture and appliance pools and is ordering the
startup stock. Embassy Abu Dhabi can spend an entire day retrieving a set of household
furniture. Consulate General Dubai is breaking a shipment of furniture into four stages, because
it cannot receive the entire shipment at one time. Lack of warehouse space compromises
receiving and storekeeping functions and diminishes worker safety.

Recommendation 33: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should identify separate warehouse spaces close to the embassy and to the
consulate general and either lease or purchase it. (Action: Embassy Abu Dhabi, in coordination
with OBO)

Housing

        Haphazard notification of arriving employees and delays in the make-ready process can
lead to lengthy stays in temporary quarters for new employees.

        The make-ready process is well coordinated within the GSO and facilities management
offices, but the housing office struggles to obtain information on employee arrival and departure
dates. Decisions on NSDD-38 positions, temporary duty personnel, curtailments, and travel are
made without GSO input, and information is not shared in a systematic way. The failure to link
decisions about arrivals and departures with housing capacity sets the housing program up for
failure and lowers mission morale. ICASS standards call for advance notification of new arrivals.

Recommendation 34: Embassy Abu Dhabi should implement a process to ensure timely
notification to the housing office of new arrivals. (Action: Embassy Abu Dhabi)

         Landlords are often unresponsive to lease provisions holding them responsible for
maintaining leased properties, particularly the full make-ready of apartments or houses with a
change of tenant. Because landlords routinely hire unskilled day laborers incapable of doing an
adequate maintenance and safety make-ready, the mission developed a detailed scope of work,
requested proposals, and selected three contractors to share the work. None of the three was able
to fulfill their contractual obligations. The embassy prodded them through a particularly
frustrating make-ready season and is now re-competing the contract. The embassy is not holding
landlords accountable by deducting payments when they do not comply with lease provisions.

       Informal Recommendation 4: Embassy Abu Dhabi should review its leases and deduct
       maintenance costs from lease payments as appropriate.

Procurement

       Procurement files are in order, but training would improve procurement staff’s
performance. Large contracts contain a trafficking-in-persons clause, contractor representatives
follow guidance outlined in procurement information bulletin No. 2011-09, and have structured
monitoring programs including surprise visits to workers’ housing compounds.

       Informal Recommendation 5: Embassy Abu Dhabi should provide additional training
       for its procurement staff.
                                       27
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Motor Pool

        Motor pool drivers enforce seat belt use, do regular vehicle maintenance checks, and do not
exceed 10 hours per shift. Staggered work schedules help compensate for understaffing. Though the
motor pool is busy, instituting a daily shuttle between Abu Dhabi and Dubai would enhance
communication, mail delivery, and document exchange. Currently, procurement and payment
documents can take 3 or more days to get back and forth. Inspectors heard from several interlocutors
that they would like to visit the other post, but could not find the time to drive. A regular shuttle
would facilitate travel.

Recommendation 35: Embassy Abu Dhabi should conduct a feasibility study on implementing
a daily shuttle to and from Consulate General Dubai. (Action: Embassy Abu Dhabi)

        Vehicle dispatch is conducted by cell phone, as only the Ambassador, DCM and principal
officer vehicles have two-way radios. Using radios enables all drivers to hear the dispatcher and one
another at the same time. The cell phone network is frequently overloaded. Radios provide an
alternative and can lead to more efficient operations.

Recommendation 36: Embassy Abu Dhabi should implement a plan to dispatch motor pool
vehicles by radio. (Action: Embassy Abu Dhabi)

Official Visitor Support

       Embassy Abu Dhabi and Consulate General Dubai each need at least one more full-time
employee to manage official visitor support. Consulate General Dubai in particular could lighten
its administrative support load by outsourcing expediting services. Overtime statistics include a
disproportionate amount of expediter time at Dubai airport, in some cases simply being on
standby for passengers who did not disembark a transiting aircraft. Given the understaffing and
the many expediting service companies in the UAE, such use of LE staff is wasteful. The cost of
expediting services can be charged to the traveler.

Recommendation 37: Embassy Abu Dhabi should implement a policy for outsourcing some
passenger expediting services. (Action: Embassy Abu Dhabi)

Facilities Management

        Mission growth without commensurate staff growth in facilities management has led to
steadily declining ICASS customer service scores in residential maintenance. Facilities
management staff members perform the duties of the contractor’s representative for the
embassy’s make-ready contracts. Because the quality of contractor work is low, a routine make-
ready of one apartment takes approximately 40 hours. The facilities manager estimates that he
needs 30 percent more staff to meet customer service standards. The staff devotes considerable
time to assist the DSD contractor with make-readies.

        Maintenance issues raised in Washington are being resolved: a pool fence at the defense
attaché’s residence is nearing completion; a new PCC chiller is operational; and a replacement
engine pump for the embassy fire sprinkler system is being manufactured and is to be delivered


                                        28
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

shortly. At the inspection team’s request, staff agreed to look into the question of inadequate
power outlets.

        There is space for considerable expansion in the embassy, but additional desk spaces will
require an upgrade of air conditioning systems. A space planning team from the Bureau of
Overseas Buildings Operations visited in April 2013 in conjunction with the rightsizing report.

Recommendation 38: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a comprehensive space and infrastructure review. (Action:
Embassy Abu Dhabi, in coordination with OBO)

Safety, Health, and Environmental Management

         The principal officer leads quarterly occupational safety and health committee meetings,
but the embassy does not hold regular meetings. Per 15 FAM 933, such meetings should be held
at least semiannually. Without regular oversight of the safety program, employees risk injury.

Recommendation 39: Embassy Abu Dhabi should institute regular meetings of the safety and
health standing committee. (Action: Embassy Abu Dhabi)

Human Resources

        ICASS scores are comparable to region and worldwide averages, and scores on OIG’s
survey fall within averages at other missions. Nevertheless, inspectors received many complaints
relating to the slowness of hiring and the transparency of eligible family member hiring and LE
recruitment.

        Much of the criticism results from the human resources office being understaffed.
Staffing has not kept up with mission growth and workload, and the office is continually playing
catch-up. The 2012 rightsizing report noted that the human resource office was the most leanly
staffed compared to similar missions.

Staffing

        Despite the fact that the 2012 rightsizing report stated that the mission projected an
additional two staff members in Abu Dhabi and one in Dubai, the mission’s own ICASS
proposal at about the same time excluded any requests for positions in the human resources
office. The newly arrived human resources officer should assess the staffing situation at the
embassy and the consulate general and recommend any appropriate increases to the management
counselor and the ICASS Council.

Recommendation 40: Embassy Abu Dhabi should perform a study of human resources staffing
and recommend position increases to the International Cooperative Administrative Support
Services Council, as appropriate. (Action: Embassy Abu Dhabi)




                                       29
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Local Titles

         Three years ago, Embassy Abu Dhabi revised the titles of both LE and U.S. direct-hire
staff. Titles presented to the ministry of foreign affairs have an enormous impact on employees’
ability to operate in the country. A “vice consul” might have access to an airport pass, but a
“consulate general employee” may not. A “manager” might get a meeting with a prominent local
executive, but an “administrative assistant” may not. A “clerk” might be able to sponsor his
family to live in the UAE, but a “driver” may not. Inspectors heard from several interlocutors
that newly hired drivers are now being given the title of “driver” rather than the former “clerk”
title. To increase operational effectiveness and equitable treatment of employees, titles must be
consistent. It would be useful for the embassy to examine standards used by other diplomatic
missions in the UAE.

Recommendation 41: Embassy Abu Dhabi, in coordination with the Bureau of Human
Resources, should formulate and implement title standards in conformance with local law and
practice. (Action: Embassy Abu Dhabi, in coordination with DGHR)

Rest and Recuperation Travel

         Abu Dhabi and Dubai are non-differential posts, which normally would not qualify them
for rest and recuperation travel. In May 2012, the Bureau of Administration’s Office of
Allowances analyzed hardship differential questionnaires from embassies and consulate generals
worldwide. It used a 12-point scoring system to determine rest and recuperation eligibility. One-
hundred eighty-one missions were recertified as eligible. Another 23 missions not receiving a
hardship differential, including Abu Dhabi and Dubai, were examined further using the 12-point
scoring system. This analysis determined that neither Abu Dhabi nor Dubai was qualified. Abu
Dhabi met the rest and recuperation criteria for only 2 of the 12 factors (climate and unusual
personal hazards), and Dubai for only 3 (climate, unusual personal hazards, and communicable
diseases). The allowances office recommended to the Assistant Secretary for Administration that
Abu Dhabi and Dubai cease the authorization of rest and recuperation travel.

        The Bureau of Near Eastern Affairs countered this decision with memoranda from Abu
Dhabi and Dubai detailing social/cultural/gender isolation, geographic isolation, climate, health
conditions, and similar issues. Inspectors noted that, with the exception of climate, the post
report for the United Arab Emirates addresses none of these elements. The Bureau of
Administration concurred with the Bureau of Near Eastern Affairs and retained rest and
recuperation travel for Abu Dhabi and Dubai.

       A review of the rest and recuperation destinations indicates that Dubai remains a
“regional rest break” location for employees based in Kabul. There is no justification for
continuing this benefit for employees assigned to Abu Dhabi or Dubai. In FY 2013, the mission
spent $260,000 on rest and recuperation travel.

Recommendation 42: The Bureau of Administration should eliminate the rest and recuperation
travel benefit for Embassy Abu Dhabi and Consulate General Dubai. (Action: A)




                                       30
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Policies

        The mission last updated its nepotism policy more than 8 years ago. There are two
different mission awards policies posted on the embassy intranet. The disciplinary policy dates
from 2005. The mandatory retirement policy dates from 2004. The mission does not have a
policy on the process for hiring eligible family members.

Recommendation 43: Embassy Abu Dhabi should review and reissue its human resource
policies. (Action: Embassy Abu Dhabi)

Eligible Family Member Evaluation Reports

        The mission tracks the status of eligible family member employment and even includes
dates when the evaluation reports are due. However, in several cases, evaluations were late or
officers departed without completing an evaluation.

       Informal Recommendation 6: Embassy Abu Dhabi should implement controls to ensure
       timely completion of evaluations on eligible family member employees.

Job Advertisements

       Advertisements for vacant LE staff positions go out to the mission and the general public.
As a result, hundreds of job applications can flow into the human resource office. The mission
should advertise some positions in-house first, to provide additional promotion opportunities.

       Informal Recommendation 7: Embassy Abu Dhabi should identify vacant locally
       employed staff positions that can be advertised in-house.

Overtime

       The embassy paid more than 15,000 hours of compensated overtime (almost $278,000) to
LE staff members during the first 9 months of 2013. At least some of this overtime was not pre-
approved.

       Informal Recommendation 8: Embassy Abu Dhabi should review its overtime policy
       and reduce the amount of overtime worked by mission employees.

Local Staff Salary and Benefits

        The LE staff were authorized a salary increase in 2008. The embassy decided to
implement it in three tranches. It implemented the first two tranches, but prior to implementing
the third, the Department imposed its current wage freeze. The third tranche will not be
implemented without a new survey. Despite the fact that employees are unhappy with the lack of
pay increases, attrition is only 3.5 percent.

       The Bureau of Human Resources authorized an education allowance in 2002 and 2003.
However, the embassy did not implement the allowance. Embassy management now supports the
allowance. The lack of the benefit has a more deleterious effect on morale than the lack of a
                                       31
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

salary increase, because many LE staff employees must send their families home or enroll their
children in substandard private schools in the UAE. The UAE Government does not permit LE
staff (all third country nationals) to send their children to public schools. The embassy has
requested a waiver from the wage freeze to implement the education allowance; however, the
ICASS council must amend the local compensation plan in accordance with 3 FAH-2 H-220 K
in order to fund the educational benefits.

Recommendation 44: Embassy Abu Dhabi, in coordination with the Bureau of Human
Resources, should bring the local staff education benefit to a vote by the International
Cooperative Administrative Support Services council and follow up with the Bureau of Human
Resources to obtain the waiver to implement the education allowance. (Action: Embassy Abu
Dhabi, in coordination with DGHR)

Position Classification

        The LE staff committee and many LE staff members express dissatisfaction with the
position classification process. Inconsistent application and the multitude of sources (Abu Dhabi,
Frankfurt, and Tbilisi) used by the embassy to classify positions has resulted in delays and
inequitable results.

Recommendation 45: Embassy Abu Dhabi, in coordination with the Frankfurt Regional
Support Center, should complete all position classification and reclassifications for Abu Dhabi
and Dubai. (Action: Embassy Abu Dhabi, in coordination with RSC Frankfurt)

Special Immigrant Visas

        The multinational composition of the mission LE staff in Abu Dhabi and Dubai, with
many coming from countries in turmoil, produces considerable interest in the special immigrant
visa program. Mission policy accurately reflects standards in 9 FAM 42.32 (d) (2). However,
there is a disparity between policy and implementation. The recent rejection of a number of
special immigrant applications by the special immigrant visa committee has produced
widespread confusion and consternation among the LE staff concerning how the published
policy is implemented. Inspectors heard from several U.S. direct hires that the committee has
recently used more years of service than required by regulation or than used by the embassy in
the past. Embassy leadership needs to clarify special immigrant visa standards.

Recommendation 46: Embassy Abu Dhabi should clarify the standards used in implementing
special immigrant visa policy and disseminate it to employees and the locally employed staff
committee. (Action: Embassy Abu Dhabi)

       One of the issues in doubt is the degree to which the situation in the staff member’s
country of permanent residence and nationality, as opposed to the situation in the country of
employment, may be considered an “exceptional circumstance” for special immigrant visa
purposes.

Recommendation 47: Embassy Abu Dhabi should obtain clarification from the Bureau of
Consular Affairs on whether the use of the political situation in a locally employed staff

                                       32
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

member’s home country may be an exceptional circumstance for the purpose of acquiring special
immigrant visa status. (Action: Embassy Abu Dhabi)

Members of Household of Mission Employees

       Employees commented on the lack of information they receive before and after
assignment regarding members of household employees, particularly the fact that the embassy
cannot sponsor UAE visas for these employees. It would be helpful for the mission to provide
such information.

        In Abu Dhabi, four political/economic positions and three consular positions are Arabic
language-designated. In Dubai one political/economic position and one public affairs position are
language-designated. Five of these positions are designated at the 2/1 level. Two are designated
3/3. Two consular positions are language preferred. Incumbents were unanimous in their view
that Arabic is useful in the UAE only at an advanced level that includes knowledge of the local
dialect, and that even 3/3 is too low.

Recommendation 48: Embassy Abu Dhabi should eliminate or upgrade its Arabic language
designated positions at the 2/1 level or below during the Department’s 2014 triennial review of
language-designated positions. (Action: Embassy Abu Dhabi)

Equal Employment Opportunity

       The embassy has identified an Equal Employment Opportunity (EEO) counselor and a
Federal Women’s Program coordinator. The EEO counselor has completed appropriate training.
There have been no formal complaints filed in Abu Dhabi during her tenure. There is no EEO
information posted to the embassy intranet.

       Informal Recommendation 9: Embassy Abu Dhabi should post Equal Employment
       Opportunity information on its intranet.

         There is no LE EEO liaison in Abu Dhabi. Four potential candidates have been
identified, and they will be trained shortly, prior to announcing to the mission that they are
available for consultations.

       Dubai has two EEO representatives and a Federal Women’s Program coordinator. There
have been no formal complaints filed from Dubai. The consulate general has chosen three LE
staff members to serve as EEO liaisons, and they will receive training shortly. EEO bulletin
boards are situated throughout the consulate general in appropriate locations.

       Because of the proximity of the two posts, the EEO counselors in Abu Dhabi and Dubai
should coordinate their management notices. For example, it would be helpful for the mission as
a whole to know that there will shortly be seven LE EEO liaisons available to support both Abu
Dhabi and Dubai.




                                        33
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Financial Management

        The financial management office in Abu Dhabi is staffed with a direct-hire American, a
senior financial specialist, and nine other LE staff members. ICASS scores indicate an
improvement in performance since the 2012 report was released, although the scores on OIG’s
questionnaires were slightly below average. Justifications provided by the mission for
obligations not yet liquidated were valid.

Staffing

       The 2012 rightsizing report indicated that the financial management office in Abu Dhabi
was leanly staffed. That same year the ICASS council approved the hiring of an additional
budget analyst as 1 of 19 additional ICASS positions. At the time of the inspection, the
additional analyst had not been hired.

Recommendation 49: Embassy Abu Dhabi should hire an additional locally employed budget
analyst. (Action: Embassy Abu Dhabi)

Use of Post Support Unit

        Embassy Abu Dhabi uses the post support unit to process some vouchers. However, the
majority of those vouchers belong to the DSD element of the mission. For example, in
FY 2012, 563 vouchers were sent to the post support unit, but only 51 were Department
vouchers. In FY 2013, 929 vouchers were sent to the post support unit, but only 56 were
Department vouchers. Travel vouchers accounted for most of the Department vouchers sent to
the post support unit. Recent figures indicate that it costs $28.41 to process a voucher in Abu
Dhabi. It costs less to do so at a post support unit.

Recommendation 50: Embassy Abu Dhabi, in coordination with the Bureau of the Comptroller
and Global Financial Services, should perform a cost-benefit analysis to determine the most
efficient location to process financial vouchers. (Action: Embassy Abu Dhabi, in coordination
with CGFS)

Fund Transfer for Official Residence Employees

       A review of the official residence expenses staff files indicates two employees of the
DCM residential staff are receiving electronic funds salary payment directly to their bank
accounts via the U.S. Government disbursing system. This practice is counter to 3 FAM 3257(a),
which states that permanent and part-time staff employed under official residence expenses are
employees of the principal representative, not the U.S. Government.

Recommendation 51: Embassy Abu Dhabi should cease electronic funds transfer salary
payments to official residence expenses staff. (Action: Embassy Abu Dhabi)

International Cooperative Administrative Support Services

        The ICASS council is active and meets frequently. A budget committee exists but is not
as active. The budget committee should function as a cost controller, identifying areas where
                                       34
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

mission costs could be reduced. For example, as noted in the human resource section of this
report, mission overtime expenses are excessive and the budget committee would be an excellent
forum for discussing how to reduce them.

        The ICASS corner of the Abu Dhabi SharePoint site does not contain information on
standards, the ICASS budget, or minutes from ICASS council and budget committee meetings.
The ICASS site largely duplicates information available under the financial management center
online icon that has been identified as an innovative practice. The ICASS site should be merged
with the financial management center site, with additional information added.

       Informal Recommendation 10: Embassy Abu Dhabi should remove the International
       Cooperative Administrative Support Services icon on its SharePoint site and include all
       meeting minutes and other information under its financial management center online site.

Voucher Review

       A review of petty cash vouchers indicated that personnel were paying as little as
7 dirhams (about $2.00) per month for personal telephone calls. A mission policy relating to
mobile phone and computing devices, dated February 2010, addresses payment for personal
telephone calls but is silent on the amounts. It is counterproductive to process vouchers for small
amounts.

Recommendation 52: Embassy Abu Dhabi should reissue its personal calls policy and set a
minimum amount for which reimbursement is required. (Action: Embassy Abu Dhabi)

Cash Reconciliations

        The OIG team observed cash reconciliations in both Abu Dhabi and Dubai. The Abu
Dhabi cashier was able to balance his account, but the inspection team identified two
shortcomings. First, cashier hours are not consistent. This confuses customers and creates
difficulties for the cashier, who either makes exceptions to accommodate customers or tells them
to return during cashier hours.

       Informal Recommendation 11: Embassy Abu Dhabi should standardize cashier hours.

       A review of subcashier authorizations in Abu Dhabi indicated several were out of date.
There was no indication that a subcashier review had been performed recently.

       Informal Recommendation 12: Embassy Abu Dhabi should perform a subcashier review
       and update all subcashier authorizations.

        At the time of the cash reconciliation in Dubai, the Class B cashier was on leave. The
alternate cashier, along with the management officer, performed the reconciliation. They were
unable to balance the account. The financial management officer from Abu Dhabi visited the
consulate general the following day and rectified the discrepancy.

        The alternate cashier in Dubai is also the housing officer. She has not received formal
cashier training. She volunteered to perform the function in the absence of a financial
                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

management LE staff member. This situation is another reflection of understaffing in Dubai’s
management section. The ICASS council approved a new financial assistant position in
November 2012, but it has not been advertised. The consulate general needs to hire another
financial management assistant and train that individual to be an alternate cashier.
Recommendation 53: Embassy Abu Dhabi should hire a second locally employed financial
management assistant to serve as an alternate cashier at Consulate General Dubai. (Action:
Embassy Abu Dhabi)

Innovative Practice: Abu Dhabi Online Financial Management Center

Innovative Practice: Abu Dhabi Online Financial Management Center

Issue/Challenge: Financial forms and policies are frequently scattered among different
SharePoint sites or are available only in hard copy.

Background: Online services are recognized as beneficial but are often unwieldy or poorly
organized.

Response: Embassy Abu Dhabi created the first SharePoint-based financial management center.
Its design is similar to those used by major financial services companies.

Benefit: The site provides customers instant access to all financial data and services the financial
center provides, saving mission employees time and effort. The site includes accounts and
budgets, ICASS, cashier information, payroll, reimbursements, and travel.

Abu Dhabi Information Management

       A seasoned information management officer successfully manages information
management (IM) programs and systems sections. Staffing levels at the embassy are adequate,
and the unit meets the operational requirements of this rapidly growing mission. IM services
received above average ICASS scores, but slightly below average scores on OIG survey
questionnaires.

         The IM officer should have oversight of IM operations at Consulate General Dubai
included in his work requirements statement. As the senior IM officer in country, he should also
be the reviewing officer for the senior IM position in Dubai to provide a senior assessment of the
latter’s managerial and technical abilities. The current reviewing officer is the information
programs officer.

       Informal Recommendation 13: Embassy Abu Dhabi should designate the information
       management officer as the reviewing officer for the senior information management
       officer at Consulate General Dubai.

Information Programs Center

The information programs center maintains excessive paper files. The embassy should reduce
these holdings in accordance with 5 FAH-4 H-300 records disposition schedules.

                                       36
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 14: Embassy Abu Dhabi should reduce paper files in the
       information programs office in accordance with Department regulations.

Information Systems Center

      The information systems center does not secure its systems and application software and
backup media in a security container that meets 12 FAM 622.1-7 requirements.

       Informal Recommendation 15: Embassy Abu Dhabi should store systems and
       application software and backup media in an approved security container.

       Mission policy 10-106 dated February 2, 2010, for mobile devices, such as BlackBerry
devices, RSA tokens (FOBs), and laptops, should be reviewed and updated per 12 FAM 682.2.

Emergency and Evacuation Radio Coverage

       Some embassy housing in Abu Dhabi is on the fringe of the embassy’s emergency and
evacuation VHF radio range. The embassy and the Frankfurt Regional Information Management
Center should conduct a survey to confirm radio coverage and where necessary, take steps to
improve it.

Recommendation 54: Embassy Abu Dhabi, in coordination with the Frankfurt Regional
Information Management Center, should conduct a site survey to improve radio communication
to all embassy housing areas. (Action: Embassy Abu Dhabi, in coordination with RIMC
Frankfurt)

Telephone System Contingency Planning

        A planned upgrade and expansion of the embassy telephone system began during the
inspection. [Redacted] (b) (5)


       [Redacted] (b) (5)




                                      37
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Mission morale is poor. Morale and the housing program received the lowest scores on
OIG questionnaires by a wide margin. Many complaints are caused by Abu Dhabi and Dubai
being understaffed in management sections, lengthy initial stays in temporary quarters, and the
location of the Al-Reef housing compound. Understaffing has a cascading effect on housing
maintenance, personnel, and financial services, and subsequently on morale. Abu Dhabi and
Dubai are not hardship differential posts but do receive a 25 percent cost of living allowance.

       The embassy employee association has internal control weaknesses. The lack of a
cooperative working relationship with Dubai creates internal control issues there relating to the
handling of cash by community liaison office (CLO) coordinators. The CLO in Abu Dhabi
received a low score relative to other inspected missions, particularly by Department employees.

        The American schools and the Abu Dhabi health unit are well thought of, although scores
for the health unit in Dubai are poor, reflecting the absence of a local nurse. The mission was in
the process of hiring one during the inspection.

Employee Association

        The American Embassy Employee’s Association (AEEA) supports activities for embassy
employees. While its by-laws also call for supporting Consulate General Dubai, the AEEA has
no relationship with the consulate general. The AEEA sells duty-free alcohol and locally
procured products and supports a fitness center. It also manages two contracts, one with a local
bus company that provides transport for schoolchildren and another that provides cafeteria
service. The AEEA needs much more mission management attention than it has been receiving.

        In October 2012, the Bureau of Administration’s Office of Commissary and Recreational
Affairs conducted an internal audit of AEEA operations. Its report found serious and material
internal control weaknesses and made numerous recommendations. Inspectors were told some of
the deficiencies have been corrected, but there is no accounting of which recommendations are
outstanding and which have been completed.

        The Office of Commissary and Recreational Affairs advised the OIG team in August
2013 that association financial statements and the principal officer’s compliance certification
were late and that a business plan was not in place. Nevertheless, on June 12, 2013, the acting
chief of mission provided a statement of assurance to the Office of Commissary and Recreational
Affairs indicating that internal controls were in place. This statement was inaccurate. In at least
one instance since then, cash was paid from the cash register despite the fact that the Office of
Commissary and Recreational Affairs recommended ceasing this practice. There are no
indications that the board was involved in reconciling inventories, performing cash
reconciliations, or that an employee handbook was prepared; the Office of Commissary and
Recreational Affairs report recommended that these actions be taken.

Recommendation 55: Embassy Abu Dhabi should respond formally to the Bureau of
Administration, Office of Commissary and Recreational Affairs, recommendations regarding the
employee association. (Action: Embassy Abu Dhabi)

                                       38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The post profile indicates the association charges a yearly deposit fee for families,
singles, local hires, and temporary duty personnel even though association by-laws identify these
as refundable. In addition, the embassy does not maintain an accurate membership list and could
not produce one when OIG requested. In addition to maintaining an accurate membership list,
the embassy needs to clarify the association’s fee policy and present it to the community for
discussion and review.

        Embassy Abu Dhabi has no license agreement on file. The Office of Commissary and
Recreational Affairs was able to provide a copy of the last agreement dated May 2011. A new
draft agreement prepared in 2012 was never completed. The Office of Commissary and
Recreational Affairs indicated in its audit that a new agreement was required since AEEA was
not reimbursing the embassy for utility costs.

Recommendation 56: Embassy Abu Dhabi should draft a new license agreement between the
association and the embassy and present it to the Bureau of Administration for review and
approval. (Action: Embassy Abu Dhabi)

Use of SharePoint

        The Abu Dhabi SharePoint site includes a tab for the employee association but there is no
information posted on it. The general community has no access to such information. In the
interest of transparency, various AEEA documents and meeting minutes should be posted on the
SharePoint site.

Community Liaison Office

       The CLO in Abu Dhabi has two full-time coordinators, both of whom have completed
CLO training. The office scored below average on ICASS and OIG questionnaires. The embassy
should consider establishing, through ICASS, a part-time eligible family member position
responsible for preparing the CLO newsletter, thus freeing the two full-time CLO coordinators
from that administrative function.

       The CLO operation in Dubai is effective. One newly hired coordinator requires training.
Because there is no relationship between Abu Dhabi and Dubai as it relates to the employee
association, the CLO in Dubai has no income source except for bake sales and has been handling
funds (via shirt sales) in violation of 2 FAM 113.7-2 (c). This FAM indicates CLO coordinators
can only handle community funds through the services of a community recreation/welfare
association or the establishment of a local bank account.

       Informal Recommendation 17: Embassy Abu Dhabi should instruct the community
       liaison office in Dubai how to handle the receipt of cash.

Health Unit

      The Abu Dhabi health unit received average ICASS and OIG survey scores. The
Department recently established a regional medical officer position in Abu Dhabi to cover
Kuwait, Manama, and Dubai. She is working to improve services in Abu Dhabi, including
maximizing space in the health unit and working with management to fill vacant nurse positions
                                       39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

in both Abu Dhabi and Dubai. Another regional medical officer and a regional medical officer
psychologist, also based in Abu Dhabi, travel the majority of the time.

        The unit’s long list of local health service providers included no information on their
quality or previous experience. Several employees told inspectors they found it daunting to select
a health service provider with no information on the provider’s competence or track record. The
new regional medical officer has not assessed local providers due to understaffing. Per 16 FAM
112b., regional medical officers are responsible for evaluating local medical services. Not doing
so puts patients at risk.

Recommendation 57: Embassy Abu Dhabi should evaluate local health service providers.
(Action: Embassy Abu Dhabi)




                                       40
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
        The absence of appropriately configured and located warehouse space, and uneven
training across administrative support sections serve to weaken mission’s management controls.
Consular management controls were in order.

Property Controls

        Due to inadequate storage space for large shipments, the receiving clerk in Abu Dhabi
often receives shipments of furniture at the house where the furniture will be used. The clerk
stands by the delivery truck, matching items against the purchase order as they are offloaded and
uncrated. She then accompanies the movers to affix bar codes on the items as they are placed
throughout the residence. In one instance, the receiving clerk went to the hospital the next day
due to possible heat stroke. It is not always possible to complete the receiving in one day. At
Consulate General Dubai, the loading dock designed to receive shipments is controlled by the
security office and is not used for receiving goods, leaving no designated controlled receiving
area.

       These practices violate 14 FAM 413, which spells out property receipt regulations and
procedures. Not following these procedures blurs procurement and property accountability
functions, risking mismanagement and waste of U.S. Government resources.

Recommendation 58: Embassy Abu Dhabi should bring its receiving function into compliance
with Department of State regulations. (Action: Embassy Abu Dhabi)

       At Consulate General Dubai, the maintenance storage area is accessible to many
employees, and there is no assigned storekeeper. These practices are contrary to 14 FAM 414,
which outlines property accountability procedures.

Recommendation 59: Embassy Abu Dhabi should bring its maintenance property accountability
functions into compliance with Department regulations. (Action: Embassy Abu Dhabi)

Training

        Inspectors found that several ICASS employees had not completed the training necessary
to understand internal controls and to do their jobs correctly. There is no established procedure
for prioritizing training needs across the mission. Managers are reluctant to allow employees to
be absent for training due to understaffing.

Recommendation 60: Embassy Abu Dhabi should review and prioritize training needs across
the mission and provide training accordingly. (Action: Embassy Abu Dhabi)

Procurements for the Ambassador

       The Ambassador purchased a camera kit with his personal credit card, then requested
reimbursement from the embassy, which the embassy provided. Per 14 FAH-2 H-132a., this


                                       41
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

constitutes an unauthorized commitment. Section H-132.21 of 14 FAH-2 explains how to
address this through ratification procedures.

Recommendation 61: Embassy Abu Dhabi should ratify the unauthorized commitment
involving the Ambassador’s camera kit. (Action: Embassy Abu Dhabi)

       The Ambassador has requested that Consulate General Dubai pay personal expediting
services with the consulate general’s government credit card for his convenience. Though he
reimbursed all personal expediting services, he benefited from the corporate rate and
inappropriately used government resources for personal purposes.

Recommendation 62: Embassy Abu Dhabi should cease using a government credit card for the
Ambassador’s personal expenses. (Action: Embassy Abu Dhabi)

Gifts

        Embassy Abu Dhabi has not designated a gifts officer or standard operating procedures
for disposition of gifts, as required by Department regulations. Per 3 FAM 4122.1, the gifts
officer is the embassy management officer. Because gifts are used and disposed of in accordance
with Department regulations governing property management and disposal, management offices
often delegate this role to the general services office. The absence of a clear standard operating
procedure for gifts disposition places gift recipients at risk of ethics violations.

        Informal Recommendation 18: Embassy Abu Dhabi should designate a gifts officer and
        publish a standard operating procedure for gifts disposition.




                                       42
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Abu Dhabi should establish a schedule of regular meetings for
the law enforcement and illicit finance working groups and the Ambassador or the deputy chief
of mission should attend them. (Action: Embassy Abu Dhabi)

Recommendation 2: Embassy Abu Dhabi should review mission goals and objectives to make
them easier for staff members to understand and achieve and periodically update them. (Action:
Embassy Abu Dhabi)

Recommendation 3: Embassy Abu Dhabi should cease requesting special handling of traffic
fines and process them in accordance with mission policy. (Action: Embassy Abu Dhabi)

Recommendation 4: The Bureau of Near Eastern Affairs, in coordination with Embassy Abu
Dhabi, should clarify the embassy’s role as a regional platform. (Action: NEA, in coordination
with Embassy Abu Dhabi)

Recommendation 5: Embassy Abu Dhabi should develop a comprehensive multiyear plan that
provides the mission with sufficient administrative support. (Action: Embassy Abu Dhabi)

Recommendation 6: Embassy Abu Dhabi should calculate International Cooperative
Administrative Support Services costs at the beginning of any discussion about new positions.
(Action: Embassy Abu Dhabi)

Recommendation 7: Embassy Abu Dhabi should bring its temporary duty processes into
conformity with National Security Decision Directive 38. (Action: Embassy Abu Dhabi)

Recommendation 8: Embassy Abu Dhabi should bring its timeline for authorizing the arrival
dates of new employees into conformity with National Security Decision Directive 38 and
International Cooperative Administrative Support Services guidelines. (Action: Embassy Abu
Dhabi)

Recommendation 9: Embassy Abu Dhabi should implement a policy on new locally employed
staff positions, including charging for initial costs of the positions. (Action: Embassy Abu
Dhabi)

Recommendation 10: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Administration, should develop a timeline for the Department of Defense to provide a full-time
contracting officer’s representative to Embassy Abu Dhabi to oversee the Defense Support
Division contract. (Action: NEA, in coordination with A)

Recommendation 11: The Bureau of Administration, in coordination with Embassy Abu
Dhabi, should designate a contracting officer’s technical monitor in accordance with the terms of
the Defense Support Division contract. (Action: A, in coordination with Embassy Abu Dhabi)

Recommendation 12: The Bureau of Near Eastern Affairs, in coordination with Embassy Abu
Dhabi and the Office of the Under Secretary for Management, should conduct a review of the
Defense Support Division contract that addresses quality of service and whether the contract

                                       43
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

should be continued or its obligations assumed by the embassy. (NEA, in coordination with
Embassy Abu Dhabi and M/PRI)

Recommendation 13: The Bureau of Near Eastern Affairs should hire an independent auditor
to determine whether actions taken and monies expended under the Defense Support Division
contract conform to U.S. Government contracting regulations and to identify the actual costs to
the U.S. Government of the contract to date, including embassy staff time. (Action: NEA)

Recommendation 14: Embassy Abu Dhabi should implement a comprehensive reporting plan.
(Action: Embassy Abu Dhabi)

Recommendation 15: Embassy Abu Dhabi should require political and economic staff in the
mission to use a standardized filing system in shared section files. (Action: Embassy Abu Dhabi)

Recommendation 16: Embassy Abu Dhabi should implement the worldwide visa referral
policy to mandate that all visa case advocacies be handled through the referral system. (Action:
Embassy Abu Dhabi)

Recommendation 17: The Bureau of Consular Affairs should designate a senior level
coordinator for Iranian consular issues and provide an appropriate budget to support travel and
training. (Action: Bureau of Consular Affairs)

Recommendation 18: Embassy Abu Dhabi should implement standard operating procedures
for all aspects of its consular operations. (Action: Embassy Abu Dhabi)

Recommendation 19: Embassy Abu Dhabi should review and update position descriptions in
the mission’s two consular sections and establish a system for regular review. (Action: Embassy
Abu Dhabi)

Recommendation 20: Embassy Abu Dhabi should assign media responsibilities in the Dubai
consular district to the consulate general’s public affairs section. (Action: Embassy Abu Dhabi)

Recommendation 21: Embassy Abu Dhabi, in coordination with the Bureau of Educational
and Cultural Affairs, should design an English language learning program targeted at low-
income populations. (Action: Embassy Abu Dhabi, in coordination with ECA)

Recommendation 22: Embassy Abu Dhabi should implement a program to use embassy
officers as speakers for outreach programs at American Corners. (Action: Embassy Abu Dhabi)

Recommendation 23: The Bureau of Near Eastern Affairs should close the Middle East
Partnership Initiative regional office in Abu Dhabi. (Action: NEA)

Recommendation 24: The Bureau of Near Eastern Affairs, in coordination with Embassy Abu
Dhabi and the Bureau of Human Resources, should review the work requirements and change
the grade level of the principal officer position as appropriate. (Action: NEA, in coordination
with Embassy Abu Dhabi and DGHR)

Recommendation 25: The Bureau of Near Eastern Affairs should include Consulate General
Dubai on relevant policy-related cables. (Action: NEA)

                                       44
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 26: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Abu Dhabi, should install a water fountain in the Dubai consular section waiting room.
(Action: OBO, in coordination with Embassy Abu Dhabi)

Recommendation 27: Embassy Abu Dhabi should require Consulate General Dubai’s consular
section to review all category one visa refusal files for completeness and scan them into the
consular automated systems. (Action: Embassy Abu Dhabi)

Recommendation 28: Embassy Abu Dhabi, in coordination with the Bureau of
Administration, should conduct a feasibility study on establishing a diplomatic post office for
Consulate General Dubai. (Action: Embassy Abu Dhabi, in coordination with A)

Recommendation 29: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should bring the mail screening facility at Consulate General Dubai up to
standards or install a stand-alone mail-screening unit. (Action: Embassy Abu Dhabi, in
coordination with OBO)

Recommendation 30: Embassy Abu Dhabi should schedule the designated alternate
information systems security officer at Consulate General Dubai for information assurance
training. (Action: Embassy Abu Dhabi)

Recommendation 31: Embassy Abu Dhabi should stop assigning new employees to the Al
Reef condominiums. (Action: Embassy Abu Dhabi)

Recommendation 32: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should sell the Al Reef condominiums at the earliest opportunity. (Action:
Embassy Abu Dhabi, in coordination with OBO)

Recommendation 33: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should identify separate warehouse spaces close to the embassy and to the
consulate general and either lease or purchase it. (Action: Embassy Abu Dhabi, in coordination
with OBO)

Recommendation 34: Embassy Abu Dhabi should implement a process to ensure timely
notification to the housing office of new arrivals. (Action: Embassy Abu Dhabi)

Recommendation 35: Embassy Abu Dhabi should conduct a feasibility study on
implementing a daily shuttle to and from Consulate General Dubai. (Action: Embassy Abu
Dhabi)

Recommendation 36: Embassy Abu Dhabi should implement a plan to dispatch motor pool
vehicles by radio. (Action: Embassy Abu Dhabi)

Recommendation 37: Embassy Abu Dhabi should implement a policy for outsourcing some
passenger expediting services. (Action: Embassy Abu Dhabi)

Recommendation 38: Embassy Abu Dhabi, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a comprehensive space and infrastructure review. (Action:
Embassy Abu Dhabi, in coordination with OBO)

                                       45
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 39: Embassy Abu Dhabi should institute regular meetings of the safety and
health standing committee. (Action: Embassy Abu Dhabi)

Recommendation 40: Embassy Abu Dhabi should perform a study of human resources
staffing and recommend position increases to the International Cooperative Administrative
Support Services Council, as appropriate. (Action: Embassy Abu Dhabi)

Recommendation 41: Embassy Abu Dhabi, in coordination with the Bureau of Human
Resources, should formulate and implement title standards in conformance with local law and
practice. (Action: Embassy Abu Dhabi, in coordination with DGHR)

Recommendation 42: The Bureau of Administration should eliminate the rest and
recuperation travel benefit for Embassy Abu Dhabi and Consulate General Dubai. (Action: A)

Recommendation 43: Embassy Abu Dhabi should review and reissue its human resource
policies. (Action: Embassy Abu Dhabi)

Recommendation 44: Embassy Abu Dhabi, in coordination with the Bureau of Human
Resources, should bring the local staff education benefit to a vote by the International
Cooperative Administrative Support Services council and follow up with the Bureau of Human
Resources to obtain the waiver to implement the education allowance. (Action: Embassy Abu
Dhabi, in coordination with DGHR)

Recommendation 45: Embassy Abu Dhabi, in coordination with the Frankfurt Regional
Support Center, should complete all position classification and reclassifications for Abu Dhabi
and Dubai. (Action: Embassy Abu Dhabi, in coordination with RSC Frankfurt)

Recommendation 46: Embassy Abu Dhabi should clarify the standards used in implementing
special immigrant visa policy and disseminate it to employees and the locally employed staff
committee. (Action: Embassy Abu Dhabi)

Recommendation 47: Embassy Abu Dhabi should obtain clarification from the Bureau of
Consular Affairs on whether the use of the political situation in a locally employed staff
member’s home country may be an exceptional circumstance for the purpose of acquiring special
immigrant visa status. (Action: Embassy Abu Dhabi)

Recommendation 48: Embassy Abu Dhabi should eliminate or upgrade its Arabic language
designated positions at the 2/1 level or below during the Department’s 2014 triennial review of
language-designated positions. (Action: Embassy Abu Dhabi)

Recommendation 49: Embassy Abu Dhabi should hire an additional locally employed budget
analyst. (Action: Embassy Abu Dhabi)

Recommendation 50: Embassy Abu Dhabi, in coordination with the Bureau of the
Comptroller and Global Financial Services, should perform a cost-benefit analysis to determine
the most efficient location to process financial vouchers. (Action: Embassy Abu Dhabi, in
coordination with CGFS)



                                       46
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Recommendation 51: Embassy Abu Dhabi should cease electronic funds transfer salary
payments to official residence expenses staff. (Action: Embassy Abu Dhabi)

Recommendation 52: Embassy Abu Dhabi should reissue its personal calls policy and set a
minimum amount for which reimbursement is required. (Action: Embassy Abu Dhabi)

Recommendation 53: Embassy Abu Dhabi should hire a second locally employed financial
management assistant to serve as an alternate cashier at Consulate General Dubai. (Action:
Embassy Abu Dhabi)

Recommendation 54: Embassy Abu Dhabi, in coordination with the Frankfurt Regional
Information Management Center, should conduct a site survey to improve radio communication
to all embassy housing areas. (Action: Embassy Abu Dhabi, in coordination with RIMC
Frankfurt)

Recommendation 55: Embassy Abu Dhabi should respond formally to the Bureau of
Administration, Office of Commissary and Recreational Affairs, recommendations regarding the
employee association. (Action: Embassy Abu Dhabi)

Recommendation 56: Embassy Abu Dhabi should draft a new license agreement between the
association and the embassy and present it to the Bureau of Administration for review and
approval. (Action: Embassy Abu Dhabi)

Recommendation 57: Embassy Abu Dhabi should evaluate local health service providers.
(Action: Embassy Abu Dhabi)

Recommendation 58: Embassy Abu Dhabi should bring its receiving function into compliance
with Department of State regulations. (Action: Embassy Abu Dhabi)

Recommendation 59: Embassy Abu Dhabi should bring its maintenance property
accountability functions into compliance with Department regulations. (Action: Embassy Abu
Dhabi)

Recommendation 60: Embassy Abu Dhabi should review and prioritize training needs across
the mission and provide training accordingly. (Action: Embassy Abu Dhabi)

Recommendation 61: Embassy Abu Dhabi should ratify the unauthorized commitment
involving the Ambassador’s camera kit. (Action: Embassy Abu Dhabi)

Recommendation 62: Embassy Abu Dhabi should cease using a government credit card for
the Ambassador’s personal expenses. (Action: Embassy Abu Dhabi)




                                     47
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Abu Dhabi should schedule periodic town hall
meetings and brown bag lunches where the Ambassador can have direct contact with staff
members.

Informal Recommendation 2: Embassy Abu Dhabi should update contracts with all panel
physicians and schedule visits to their offices.

Informal Recommendation 3: Embassy Abu Dhabi should give supervisory authority to the
information and cultural affairs officers in the public affairs section.

Informal Recommendation 4: Embassy Abu Dhabi should review its leases and deduct
maintenance costs from lease payments as appropriate.

Informal Recommendation 5: Embassy Abu Dhabi should provide additional training for its
procurement staff.

Informal Recommendation 6: Embassy Abu Dhabi should implement controls to ensure
timely completion of evaluations on eligible family member employees.

Informal Recommendation 7: Embassy Abu Dhabi should identify vacant locally employed
staff positions that can be advertised in-house.

Informal Recommendation 8: Embassy Abu Dhabi should review its overtime policy and
reduce the amount of overtime worked by mission employees.

Informal Recommendation 9: Embassy Abu Dhabi should post Equal Employment
Opportunity information on its intranet.

Informal Recommendation 10: Embassy Abu Dhabi should remove the International
Cooperative Administrative Support Services icon on its SharePoint site and include all meeting
minutes and other information under its financial management center online site.

Informal Recommendation 11: Embassy Abu Dhabi should standardize cashier hours.

Informal Recommendation 12: Embassy Abu Dhabi should perform a subcashier review and
update all subcashier authorizations.

Informal Recommendation 13: Embassy Abu Dhabi should designate the information
management officer as the reviewing officer for the senior information management officer at
Consulate General Dubai.

                                      48
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Abu Dhabi should reduce paper files in the
information programs office in accordance with Department regulations.

Informal Recommendation 15: Embassy Abu Dhabi should store systems and application
software and backup media in an approved security container.

[Redacted] (b) (5)

Informal Recommendation 17: Embassy Abu Dhabi should instruct the community liaison
office in Dubai how to handle the receipt of cash.

Informal Recommendation 18: Embassy Abu Dhabi should designate a gifts officer and
publish a standard operating procedure for gifts disposition.




                                    49
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officers
                                                                Name Arrival Date
Ambassador                                           Michael H. Corbin      07/11
Deputy Chief of Mission                                 Victor Hurtado      07/11
Constituent Post Dubai Consul General                      Rob Waller       07/12
Chiefs of Sections:
Management                                                Judes DeBaere     07/12
Consular                                        Christine Harold Aluyen     09/11
Political/Economic                                        Richard Eason     08/11
Public Affairs                                            Alica E. Lejlic   09/13
Regional Security                                           Mark Drobot     08/12
Media Hub                                                  Joshua Baker     05/13
Government Agencies:
U.S. Agriculture Trade Office                         Judes Akhidenor       08/10
Department of Defense                              RADM Gary Rosholt        12/11
Foreign Commercial Service                              John Simmons        08/11
Department of Homeland Security:
Homeland Security Investigations                            Adam Zeitz      01/12
Transportation Security Administration                  Jason Schwabel      02/12
Container Security Initiative                             Victoris Finan    09/10
Federal Aviation Administration                          Aaron Wilkins      11/12
Drug Enforcement Administration                          Mike Zivkovic      07/09
Department of Justice Resident Legal Advisor              John Connors      08/11
Federal Bureau of Investigation Legal Attaché           Stephen Gaudin      02/12
Treasury Office of International Affairs                Katherine Bauer     01/13
U.S. Geological Survey                                     David Clark      01/04
Military Organizations:
AFCENT Air Warfare Center                             Col Daniel Tippet
AMCOM                                                     John Phillips     10/06
Defense Logistics Agency Disposition Services               Kim Schell      05/10
U.S. Army Corp of Engineers                             Khaled Masoud       02/08
U.S. Military Liaison Office                      Col Bryan Crutchfield     05/12
Extended Training Services                        Col Abdeen A. Farley      08/09
Naval Criminal Investigative Service                     Mathew Blake       08/12
Fleet Industrial Supply Center                         Andrew Kremer        08/12
Consulate General Dubai:
Principal Officer                                           Rob Waller      07/12
Consular                                            Christopher Machin      08/14
Political/Economic                                       Tanya Spencer      08/11
Management Officer                                    Chahrazed Sioud       07/11
Regional Security                                      Michael Scollan      08/14
Public Affairs                                           Daniel Aragon      08/12
Regional Presence Office                               Jacqueline Ward      10/13




                                     50
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AEEA             American Embassy Employee’s Association

CLO              Community liaison office

COR              Contracting officer’s representative

DCM              Deputy chief of mission

Department       Department of State

DSD              Defense Support Division

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FMS              Foreign Military Sales

ICASS            International Cooperative Administrative Support Services

IM               Information management

LE               Locally employed

MBN              Middle Eastern Broadcasting Network

MEPI             Middle East Partnership Initiative

NSDD-38          National Security Decision Directive 38

UAE              United Arab Emirates




                            51
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
